<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?
 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                    JACK KINGSTON, Georgia, Chairman
 TOM LATHAM, Iowa                   SAM FARR, California
 JO ANN EMERSON, Missouri           ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        SANFORD D. BISHOP, Jr., Georgia
 CYNTHIA M. LUMMIS, Wyoming         MARCY KAPTUR, Ohio              
 ALAN NUNNELEE, Mississippi         
 TOM GRAVES, Georgia                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martin Delgado, Tom O'Brien, Betsy Bina, and Andrew Cooper,
                            Staff Assistants
                                ________
                                 PART 7

                 NATURAL RESOURCES CONSERVATION SERVICE

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
 PART 7--AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,

              AND RELATED AGENCIES APPROPRIATIONS FOR 2012
                                                                      ?

   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                    JACK KINGSTON, Georgia, Chairman
 TOM LATHAM, Iowa                   SAM FARR, California
 JO ANN EMERSON, Missouri           ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        SANFORD D. BISHOP, Jr., Georgia
 CYNTHIA M. LUMMIS, Wyoming         MARCY KAPTUR, Ohio              
 ALAN NUNNELEE, Mississippi         
 TOM GRAVES, Georgia                
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martin Delgado, Tom O'Brien, Betsy Bina, and Andrew Cooper,
                            Staff Assistants
                                ________
                                 PART 7

                 NATURAL RESOURCES CONSERVATION SERVICE

                                   S

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 66-636                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2012

                              ----------                              

                                            Tuesday, April 5, 2011.

   U.S. DEPARTMENT OF AGRICULTURE--NATURAL RESOURCES AND ENVIRONMENT

                               WITNESSES

HARRIS SHERMAN, UNDER SECRETARY, NATURAL RESOURCES AND ENVIRONMENT
DAVE WHITE, CHIEF, NATURAL RESOURCES CONSERVATION SERVICE
MICHAEL YOUNG, BUDGET OFFICER, U.S. DEPARTMENT OF AGRICULTURE

                            Opening Remarks

    Mr. Kingston. The committee will come to order.
    We are pleased today to have Mr. Harris Sherman, Under 
Secretary for the Natural Resources Conservation Service; and 
also Dave White, who is the chief; and Mr. Mike Young, who is 
just a regular. Could not go through a week without having a 
hearing up here.
    But we appreciate the good work that the NRCS does. And the 
Natural Resources and Environment mission is always a solid 
one. It is one that works with farmers and provides technical 
assistance, which--it appears that often farmers these days are 
more fearful of the government, and they do not see it the way 
they used to, in terms of, okay, this is helpful on things that 
I want to accomplish. But NRCS does work closely with private 
landowners, and we appreciate that.
    The budget also is a decrease of about $100 million from 
2010 because of the proposed cancellation of three programs. 
And we think that that is helpful under this environment. And 
we look forward to your testimony.
    It is an interesting week. We were just commenting, Mr. 
Under Secretary, this is the last hearing, and we will be going 
to markup in the next couple of weeks. Today, the budget comes 
out. This Friday, the CR is either settled or the gap becomes 
wider. We don't know. And the backdrop of Libya and everything 
else, these are interesting times.
    So we look forward to your testimony.
    Mr. Farr.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6636A.001
    
    Mr. Farr. I have no opening remarks. I will just take it to 
questions. Thank you, Mr. Chairman.
    Mr. Kingston. Okay.
    Mr. Under Secretary, your testimony has been summarized, so 
you are welcome to abbreviate it as much as you feel 
comfortable doing.
    Mr. Sherman. Okay, thank you.

                        Statement by Mr. Sherman

    Mr. Chairman, thank you very much. It is a pleasure for 
Chief White and I to be here today to present our budget to the 
committee.
    I would like, at the outset, just to emphasize the mission 
of the Natural Resources Conservation Service--NRCS. It is 
about voluntary conservation of private farms, ranches, and 
forests. It is about stewardship of the Nation's water 
resources, soils, wetlands, wildlife, vegetation, and other 
natural resources. And it is about conservation that we believe 
keeps agriculture strong and well-positioned, while providing 
jobs to rural America.
    It is also important to emphasize the context in which 
these programs exist. Seventy percent of the United States is 
in private landownership. That is about 1.4 billion acres. I 
think it is fair to say, over the past hundred years, much of 
the emphasis on conservation and stewardship has been about our 
public lands. But, today, I think there is a recognition that 
our private lands are often the lands in greatest risk, and 
they are lands where these conservation efforts will produce 
the greatest gains.
    NRCS is uniquely positioned to do good work in these areas. 
Today, we have a remarkable suite of conservation programs. 
These are programs that affect every geographic area of the 
United States. They are highly diverse in their functions and 
their applications. And I think it is fair to say there is high 
demand from landowners to the technical and the financial 
assistance that we provide.
    There are tens of millions of acres now benefitting from 
flagship conservation and easement programs. You are very 
familiar with these. They have many alphabet names to them, but 
Environmental Quality Incentives Program--EQIP--Wetlands 
Reserve Program--WRP--the Conservation Stewardship Program--
CSP--the Conservation Reserve Program--CRP--and many others are 
part of this panoply of programs that we are providing.
    And the programs are delivering major benefits. In 2010 
alone, farmers installed conservation practices on 14 million 
acres of cropland. NRCS enrolled 25 million acres into the 
Conservation Stewardship Program in 2010. And we are very proud 
of the fact that our Wetlands Reserve Program enrolled 270,000 
acres into the program during 2010.
    The National Resources Inventory that was released in 2010 
and our recent Conservation Effects Assessment Program--CEAP--
studies in the Chesapeake Bay and the Upper Mississippi River, 
clearly show that there are significant reductions that occur 
to sediment, nitrogen and phosphorus in our waterways as a 
result of these conservation practices. And so, too, we are 
starting to stem the tide of fragmentation and development of 
our farms, ranches and private forests.
    I was struck recently by the statistic that one-third of 
the land ever developed in the United States occurred between 
1982 and 2007, a 25-year period. Forty million acres were 
removed from the rural land base during this period of time, 12 
million acres of which relates to prime farmland. So I think 
NRCS is uniquely positioned to help to deal with these issues 
of fragmentation and development of our rural land base.
    The 2012 budget is a continuation of the core NRCS 
programs. As you have mentioned, we have had to make some 
painful, difficult choices, but, in these budgetary times, we 
were left with no choice. We are proposing the elimination of 
several of our 2012 discretionary programs. This includes 
support for the Resource Conservation and Development--RC&D--
councils, support for the watershed and flood control projects, 
support for the watershed rehabilitation programs, a Grazing 
Land Conservation Initiative, and the earmarks associated with 
the Conservation Operations budget.
    At the same time, we are proposing modest, strategic 
efforts to improve our efficiency and our effectiveness in the 
conservation delivery programs. Chief White will talk more 
about the Strategic Watershed Action Teams. We would like to 
continue to expand their work. The streamlining of our business 
models to enhance conservation delivery, the so-called 
Conservation Delivery Streamlining Initiative--CDSI--program. 
Greater assistance in our assessment programs, the CEAP 
programs, which demonstrate what is working, what is not 
working, and how can we accordingly improve our programs. And 
lastly, a USDA-coordinated IT infrastructure modification which 
will allow NRCS to better communicate and work with the Farm 
Service Agency--FSA--and Rural Development--RD.
    Overall, the 2012 budget will reflect an 11 percent 
reduction in our discretionary budget from 2010 levels to $899 
million. And on the mandatory side, the President's budget is 
at $3.6 billion, with $124 million for technical assistance as 
part of the CRP program. This level reflects an increase of 
prior years, although it is below authorized levels, 
particularly with respect to EQIP and to the Wetlands Reserve 
Program.
    I should mention that, as part of our efforts, in addition 
to the core programs, we are continuing to focus on landscape 
scale initiatives, better targeting within regions, better 
coordinating programs and coordinating practices. We believe 
this will pay greater dividends.
    Currently, we have some 10 landscape scale initiatives 
under way. A number of them deal with river basin programs, 
such as Chesapeake and the Upper Mississippi River and the Bay 
Delta; some that deal with wildlife, with respect to the 
Migratory Bird Habitat initiative or the Sage-Grouse 
initiative; and some that deal with forestry and vegetation, 
such as the Longleaf Pine and the New England and New York 
Forestry programs. We think these are innovative programs. We 
think that they are incorporating new tools, such as certainty 
and safe harbor agreements. And we are excited about where they 
are going.
    So let me just conclude my opening statement by saying we 
think this is a balanced, strong budget, and we look forward to 
responding to your questions.
    I know Chief White also, if he can, would like to have a 
few opening comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6636A.002
    
    [GRAPHIC] [TIFF OMITTED] T6636A.003
    
    [GRAPHIC] [TIFF OMITTED] T6636A.004
    
    [GRAPHIC] [TIFF OMITTED] T6636A.005
    
    [GRAPHIC] [TIFF OMITTED] T6636A.006
    
    [GRAPHIC] [TIFF OMITTED] T6636A.007
    
    [GRAPHIC] [TIFF OMITTED] T6636A.008
    
    [GRAPHIC] [TIFF OMITTED] T6636A.009
    
    [GRAPHIC] [TIFF OMITTED] T6636A.010
    
    Mr. Kingston. Without objection.

                         Statement by Mr. White

    Mr. White. Wow. Good morning, Mr. Chairman, Mr. Farr, Mr. 
Graves. You know, looking around here, I have to tell you, I 
never, ever expected I would be sitting in this chair. This is 
really like a dream come true for me. And thanks for having me.
    Mr. Kingston. Is this a good thing or a bad thing?
    Mr. White. This is a great thing. I mean, I wish you guys 
would bring me up more often because there is so much cool 
stuff happening in conservation I would like to share with you.
    Now, I was trying to think about how I would approach this, 
and I know you would probably like to have, like, a middle-aged 
bureaucrat read numbers to you for five minutes. But I thought, 
no, why don't I do something different? So I would like to 
share two things with you that are going to give you an idea of 
what we are doing on the land.
    You should have some color photographs in front of you. 
And, basically, it is a series of before-and-afters of what 
conservation is looking like.

                         SAGE-GROUSE INITIATIVE

    And Mr. Sherman mentioned sage-grouse. And Mr. Kingston, 
you, in your opening remarks, talked about how people, farmers 
and ranchers are more fearful of the government than they used 
to be. And I want to talk to you a little bit about sage-grouse 
and how we are trying to change the paradigm of how this Nation 
approaches threatened and endangered species.
    The sage-grouse is an iconic species. It is found 
throughout 11 western States. There used to be millions of 
them; now we are down to about 200,000. For several years, it 
has been on the candidate list as a potential listing as 
threatened/endangered. Last year, the Fish and Wildlife Service 
made the determination it is warranted to be listed but 
precluded because they have higher-priority species.
    So we have, essentially, a couple of years to work on this 
bird species. And our goal is nothing less than to prevent the 
listing of the sage-grouse. And I don't mean that through any 
nefarious measures, but, rather, to make the habitat so darn 
good as to preserve the species that the listing will become 
unnecessary.
    And the reason this is important is, many of you were here 
when the spotted owl was listed, back in the early 1990s, and 
how the listing of the spotted owl really disrupted forestry 
throughout the Northwest--people thrown out of work, a lot of 
anger. The sage-grouse has the same potential as the spotted 
owl, but it covers 10 times the area. Because of the fragmented 
ownership, with Federal private lands throughout the West, it 
would completely disrupt ranching in the western United States 
as we know it.
    So we are working with the partners. We have great support 
from the Fish and Wildlife Service. They have issued the first-
ever conference reports that says, if a person works with us on 
sage-grouse, even if the bird is listed, they won't have any 
further regulation. They are trying to take some of the ``black 
helicopter'' fear out of these issues.
    The Bureau of Land Management--BLM--has given us their 
data. The State Fish and Wildlife Service have shown us where 
the core areas are. We know now, if we can protect 25 percent 
of the core areas, we can preserve 75 percent of the species.
    The cool thing about this is, we are not talking about 
providing palliative care for every sage-grouse that is alive 
today. There will be energy development in the West. We need 
wind energy, we need oil and gas. There will be areas that will 
be developed. Our cities will grow. But if we do this right, we 
can preserve the species.
    And we can do it in an atmosphere of trust and cooperation. 
We have the wholehearted support of other Federal agencies, 
State agencies, governors, and private groups; both 
agricultural and conservation groups are 100 percent behind 
this. So we are doing it in an atmosphere of trust and 
cooperation.
    Mr. Harris mentioned the Strategic Watershed Action Teams, 
where we are going to try and leverage Federal dollars with 
private and local dollars to get more boots on the ground. In 
the sage-grouse area, we offered $4 million as potential match. 
Partners there came up with 45, 46, more than 50 percent match, 
to get range conservationists, some biologists to work with 
ranchers.
    We are getting support from people we never thought about, 
like the Rocky Mountain Elk Foundation and the Mule Deer 
Foundation, because if you protect this one species, you are 
also providing habitat for hundreds of others.
    So instead of battle lines being drawn, Mr. Chairman, we 
are trying to focus on cooperation and trying to do things that 
really matter for the American people.

             CONSERVATION DELIVERY STREAMLINING INITIATIVE

    The other thing I would like to talk to you about is a 
little initiative we have mentioned in there, the Conservation 
Delivery Streamlining Initiative. We believe--essentially, we 
have a problem. We are stuck with business models and processes 
that are from 1950, 1960, 1970. They are not serving us well. 
We are redesigning those for the future.
    What we would like to do is have clients--farmers, 
ranchers--be able to sit at their homes, come into our system, 
look at their conservation plans, look at their contracts, find 
out where a cost-share check is, find out when they have a 
practice due, and make that available to every one of our 
clients.
    We would like to have a unified desktop, which would free 
up our people from duplicative data entries. We are going to go 
in the whole area of mobile computing. There is no reason why, 
when we go out to a farm and, working with the rancher, why 
they can't just sign up for an EQIP contract. We can rank them 
and do the contract right there on the spot and just have them 
start work tomorrow or the next day.
    There are all kinds of stuff like that. And I guess the 
reason this is important is, you know as well as anyone, the 
world population is projected to rise to 9 billion. We are 
going to have to have huge increases in food production. One of 
the things I saw was 50 percent increase in production by the 
year 2030. That is less than two decades.
    And how are we going to do that? How are we going to 
increase our food supply, make room for all these wonderful 
critters we live with, have clean air, clean water, and healthy 
environment, and do it in harmony with a productive, vibrant 
agriculture that is going to feed us and part of the world? And 
I think, with your support, we can do this. You are the ones 
providing the resources. I am very grateful for it.
    And, with that, Mr. Kingston, I will conclude my remarks 
and be ready to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6636A.011
    
    [GRAPHIC] [TIFF OMITTED] T6636A.012
    
    [GRAPHIC] [TIFF OMITTED] T6636A.013
    
    [GRAPHIC] [TIFF OMITTED] T6636A.014
    
    [GRAPHIC] [TIFF OMITTED] T6636A.015
    
    [GRAPHIC] [TIFF OMITTED] T6636A.016
    
    [GRAPHIC] [TIFF OMITTED] T6636A.017
    
    [GRAPHIC] [TIFF OMITTED] T6636A.018
    
    [GRAPHIC] [TIFF OMITTED] T6636A.019
    
    [GRAPHIC] [TIFF OMITTED] T6636A.020
    
    [GRAPHIC] [TIFF OMITTED] T6636A.021
    
    [GRAPHIC] [TIFF OMITTED] T6636A.022
    
    [GRAPHIC] [TIFF OMITTED] T6636A.023
    
    [GRAPHIC] [TIFF OMITTED] T6636A.024
    
    [GRAPHIC] [TIFF OMITTED] T6636A.025
    
    [GRAPHIC] [TIFF OMITTED] T6636A.026
    
    [GRAPHIC] [TIFF OMITTED] T6636A.027
    
    [GRAPHIC] [TIFF OMITTED] T6636A.028
    
    [GRAPHIC] [TIFF OMITTED] T6636A.029
    
    [GRAPHIC] [TIFF OMITTED] T6636A.030
    
    [GRAPHIC] [TIFF OMITTED] T6636A.031
    
    [GRAPHIC] [TIFF OMITTED] T6636A.032
    
    [GRAPHIC] [TIFF OMITTED] T6636A.033
    
    [GRAPHIC] [TIFF OMITTED] T6636A.034
    
    [GRAPHIC] [TIFF OMITTED] T6636A.035
    
    [GRAPHIC] [TIFF OMITTED] T6636A.036
    
    [GRAPHIC] [TIFF OMITTED] T6636A.037
    
    [GRAPHIC] [TIFF OMITTED] T6636A.038
    
                 RESOURCE CONSERVATION AND DEVELOPMENT

    Mr. Kingston. I thank both of you.
    And I wanted to ask right off the bat, on some of the 
programs that you are proposing elimination of RC&D, I want to 
clarify for the record the situation in terms of what would 
happen if your proposal is accepted. Do the people lose their 
jobs? Can they be transferred within the agency? You know, what 
is the situation? And what happens for the rest of the year?
    Mr. Sherman. Do you want to take it?
    Mr. White. Yes, sir.
    It is about a $50 million account. We have about 391 people 
involved. It would be our intent to reprogram, reposition these 
people within the agency. Some of them may be transferred. Some 
of them would stay in the same office. Some would move to a 
local field office.
    We have looked at the jobs, their qualifications. Many of 
them would fit right into conservation operations work or farm 
bill work. A lot of them are biologists, soil conservationists, 
agronomists. So the disciplines they have we would need.
    We would also probably go for early-out/buy-out authority, 
Mr. Kingston. There are over 100 of these people that are 
eligible right now for retirement, so we think we could reduce 
the ranks some that way.
    But, essentially, it would be our intent that no one would 
lose their job and that we would reposition the people within 
the agency doing other work.
    Mr. Kingston. How does a buy-out work? Just walk me through 
an example.
    Mr. White. Mr. Vilsack has made the commitment that he 
wants all USDA to have the same parameters, so NRCS treats its 
people the same as RD or Extension or whatever. In the past, 
how it has worked is a buy-out would give you an incentive to 
retire. If you would leave now, you would get a buy-out check. 
And, in the past, it has been somewhere in the neighborhood of 
$25,000.
    So if you look, we are about halfway through the year. If 
someone is making, say, $100,000 a year, for $25,000 they would 
be gone, and we would actually have a financial savings, even 
in this year if we move quickly. But it is an incentive for 
them to do that.
    The same with an early-out, an incentive for someone who is 
going to retire early and take a reduction in their retirement.
    Mr. Kingston. What about the RC&D councils? And how many 
are there?
    Mr. White. Three hundred and seventy five.
    Some of those councils would survive; some would not.
    My best guess would be, if you look at what the RC&D 
organization has done, they have a thing called Circle of 
Diamonds, a certification program for councils where they have 
to meet all kinds of financial and different kinds of criteria 
where they are really up to snuff. There are about 140 of them 
that have this Circle of Diamonds certification. My guess would 
be, those would be the healthiest and most robust councils.
    Mr. Kingston. And those have NRCS employees supporting 
their efforts, correct?
    Mr. Sherman. Yes, our support for these councils is in the 
form of providing coordinators for the councils and, often, 
office space.
    So, again, our hope is that, if this funding is not 
available, these councils will find a way to continue that 
coordination. And they clearly will qualify for other Federal 
programs, but----
    Mr. Kingston. Uh-huh.
    Mr. Sherman [continuing]. At least in terms of providing 
the coordination----
    Mr. Kingston. So they keep their TSP, they keep their----
    Mr. Sherman. That is correct.
    Mr. Kingston [continuing]. Retirement, and they move into a 
different--unless they take the early-out, which those hundreds 
were.
    Out of the $50 million, $51 million, how much is personnel 
costs?
    Mr. White. Eighty percent.
    Mr. Kingston. Eighty percent?
    Mr. White. Yes, sir.
    Mr. Kingston. And the President's budget also proposed--
well, I mean, you are the President's budget. So it is 
eliminated in H.R. 1. If H.R. 1 passes with it eliminated, how 
does that affect you midstream here?
    Mr. Sherman. Well, I think the significance of H.R. 1 
versus the President's budget here is that we would prefer to 
have time to implement this phase-down. And under H.R. 1, it 
would come immediately. It would present some real hardships, 
to make this transition as quickly as it does. But the 
President's budget does call for, during 2012, this phase-down.
    Mr. Kingston. Okay.
    Well, my time has expired. Mr. Farr.

               WATERSHED AND FLOOD PREVENTION OPERATIONS

    Mr. Farr. Thank you, Mr. Chairman.
    Heretofore, I have been one of your biggest supporters, and 
after reading about the way you are cutting this thing, I am 
not sure I support you anymore.
    You know, you are cutting this watershed program, and you 
cut the earmarks. We put together the model for the whole 
country out in my district, with eight counties involved. We 
had a watershed management plan. It has been in operation for 
about a decade. It is working with NOAA through the National 
Marine Sanctuary through eight counties. All the farm bureaus 
have signed on. It is a remarkable program.
    And I don't see--are you going to fund it? You say there 
are other ways in which you can fund these programs. It is not 
on your priority for your new watershed enhancement program. It 
should be. It should be your model, because it is already in 
place and all the political buy-in is there.
    Mr. Sherman. Well----
    Mr. Farr. Mr. White is the one that----
    Mr. Sherman. Okay.
    Mr. Farr. I mean, you talked, you showed these pictures. It 
is great. We have done all that and more so.
    Mr. White. I know you have, sir.
    Now, the watershed program proposed for elimination in the 
President's budget--I think is different from the one in your 
area.
    Mr. Farr. Well, ours, frankly, was an earmark.
    Mr. White. I understand. The 534----
    Mr. Farr. It shouldn't have been. It should have been in 
your program because it is working better. I mean, it is the 
model the Chesapeake Bay--all these places around the country 
now are finding out about it and wanting to know what we did.
    And you had all this private-sector buy-in. It took a long 
time to build all that trust.
    Mr. White. I understand, sir.
    Mr. Farr. So what are you going to do about it?
    Mr. White. The two programs that are slated for 
elimination, one passed in 1944, the other was 1954----
    Mr. Farr. I don't care about, you know, the bureaucracy of 
it. Just, are you going to be able to fund that watershed 
program?
    Mr. White. We will still continue landscape initiatives, 
particularly in areas where water quality or threatened 
endangered species, air quality----
    Mr. Farr. Well, can you answer my question? You know what 
the program is out in the whole Monterey Bay. I mean, I just 
can't believe that you would eliminate funding for that.
    Mr. White. Well, actually, the funding has already been 
eliminated in the CR that we are currently in. It is----
    Mr. Farr. Well, you want some money to do this new program 
that you brag about. Can you fund it under that program?
    Mr. White. We will continue, sir, to the extent of our 
capability----
    Mr. Farr. Why did you choose the Sacramento Basin? What is 
the politic there? Why is that the one that you put in your B-
WET program or your--not B-WET. What the heck is it called? One 
was the Mississippi Basin, and the other was the Upper 
Mississippi River plan and the California Bay Delta plan for 
your new chosen SWAT teams, Watershed Action Teams.
    Mr. White. Yes, sir. Those were initiatives we had 
nationally. And that is where we had $20 million, and that is 
who we worked with.
    Mr. Farr. Why.
    Mr. White. That is where the initiatives we were working 
on----
    Mr. Farr. What do you mean by ``the initiatives''?
    Mr. White. We are trying to take----
    Mr. Farr. Is this a top-down initiative, or is this a 
bottom-up initiative?
    Mr. White. Actually, Bay Delta was bottom-up. So was New 
England Forestry. There were three that I----
    Mr. Farr. And so was the Monterey Bay.
    Mr. White. Yes, sir. It was an earmark that has been 
funded. We think it is a good project. And, to the extent we 
can, we will continue to support it.
    Mr. Farr. It is a good project? Your folks in California 
think it is the best project.
    Mr. White. And we give great deference to our State leaders 
on how they allocate their funds.
    Mr. Farr. But you are not answering my question then. If 
you are giving deference to them, if you are giving deference, 
your State conservationist, Ed Burton, says that this program 
needs to continue.
    Mr. White. Then we will talk to Mr. Burton on the future of 
that. Just because it is not listed as one of our national 
initiatives doesn't mean it has no value. We are doing things 
all around the Nation.

                                VEHICLES

    Mr. Farr. How many people in your program work in 
Washington?
    Mr. White. Four hundred or 500, out of the 11,000.
    Mr. Farr. So about a quarter or what?
    Mr. White. Oh, no. Four percent maybe.
    Mr. Farr. Do they use vehicles from the--do they use 
vehicles, trucks and cars, that are purchased by NRCS?
    Mr. White. No, sir. We do not have any in national 
headquarters.
    Mr. Farr. Well, then, why do you have more trucks and cars 
than you have personnel?
    Mr. White. We do have a lot of vehicles. And we are trying 
to reduce that number. That number----
    Mr. Farr. You have more than one for every single person.
    Mr. White. No, sir.
    Mr. Farr. Yes. You have 11,000 staff positions, and you 
have 11,300 trucks and cars.
    Mr. White. We have----
    Mr. Sherman. Well, can I just--on the question of vehicles, 
we are looking into this. But I just want to say that--I just 
want to say that we share----
    [The information follows:]

    (As a field-based agency, the majority of NRCS employees work 
directly with private landowners on their farms and ranches and with 
local entities to achieve conservation of our Nation's natural 
resources. By their very nature, these are rural locations where public 
transportation is non-existent, uneconomical, or inadequate. NRCS 
maintains a fleet of vehicles that is distributed among its field 
locations in the 50 States and the Caribbean and Pacific Basin areas. 
In order to maximize their use, NRCS currently has agreements for 
sharing its vehicles with other USDA agencies and partners in nearly 70 
percent of our field locations. NRCS is aggressively assessing its 
inventory in each state to justify its fleet, coordinate trips among 
staff members, maximize vehicle sharing, and dispose of older, high 
maintenance, high-emission, and under-utilized vehicles.
    As reported in the FY 2012 President's Budget and in the table 
below, NRCS expected to have 10,982 vehicles at the end of FY 2011 and 
10,940 vehicles at the end of FY 2012. However, the agency is currently 
taking steps in FY 2011 to reduce the vehicle fleet by over 10% and 
maintain that level in FY 2012 unless a critical mission need arises.

------------------------------------------------------------------------
                                                 Number of
                      FY                          Vehicles   Staff years
------------------------------------------------------------------------
 2008.........................................        8,791       11,337
 2009.........................................       10,130       11,186
 2010.........................................       11,308       11,446
 2011.........................................       10,982       13,023
 2012.........................................       10,940       12,219

------------------------------------------------------------------------

    Mr. Farr. Looking into this? You are cutting out incredible 
programs, and you are looking into the fact that you got more 
damn vehicles than you got people. I mean, I think your 
priorities are upsidedown.
    Mr. Kingston. Mr. Under Secretary, we will let you get back 
on that.
    Mr. Graves.

                  REQUEST FOR REDUCED BUDGET PROPOSALS

    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Under Secretary, we thank you for being here, and 
appreciate the willingness to show that you can operate with 
less in some areas. And I know that is something we don't see a 
whole lot of that comes before this committee, are agencies 
presenting us with some cuts.
    But one thing I would like to add as we move forward--and I 
think we will be looking for additional savings, wherever 
possible. I have a letter to submit to the chair that would ask 
that you work with us in providing us with additional savings, 
up to 20 and 25 percent, how you could accomplish your core 
mission.
    And I think you have already demonstrated a willingness to 
move in that direction, so I hope we can count on your support 
in that effort.
    Mr. Sherman. We will be very happy to work with you on 
exploring where additional possible cuts are.
    Mr. Graves. Great. Well, thank you.
    And I want to go back to--Mr. Farr was bringing up a point, 
and you mentioned that it is currently out, or been eliminated 
through the CR already. Was that in the CR adopted in December, 
or was it the one----
    Mr. White. The current one we are in.
    Mr. Graves. The current.
    Mr. White. Yes.
    Mr. Graves. So it is the 3-week we are under right now.
    Mr. White. Yes.
    Mr. Graves. Okay. Okay. So we currently have already 
eliminated that, and you are just recommending that that stays 
eliminated, as well, moving into the future.
    Mr. White. Actually, that is not part of the President's 
recommendation for 2012. The President's recommendation for 
2012 would be that the money be transferred to other projects.
    Mr. Graves. Okay.
    Mr. White. So maybe it is a semantic term.
    Mr. Graves. Sure. And if you had to think about other 
areas--and I know, oftentimes, we are talking about dollars in 
cuts, hard cuts--are there areas that you might be able to 
recommend to the subcommittee, whether just policies that the 
legislative branch has passed that you are still implementing 
or is causing you to carry out activities that are no longer 
necessary where you have moved into the 21st century in some 
way and the agency is doing something that maybe is just not 
necessary during this time?
    Mr. White. Mr. Graves, we are looking at a variety of 
things where we think we can achieve savings. The streamlining 
I talked about briefly in the oral statement, we think, at the 
out end of that, we will eliminate 80 percent of the clerical 
and admin-type work we have to do, and we will have our field 
people spending at least 75 percent of their time one-on-one 
with producers, which we want them to do. If that goes through 
the way we are projecting, that would be essentially the 
equivalent of getting 1,500 more people.
    What I would hope that the committee would work with us on 
is that, right now, the tax on government innovation is 100 
percent. So if you save money, it is generally taken away. So I 
would hope that there would be some ability to work with the 
committee to ensure that some of those savings can be plowed 
back into better customer service.
    Mr. Graves. Sure. Sure. Great. Well, thank you.
    And, Mr. Chairman, as I close, I would just--any 
recommendations you can give us to help you accomplish more 
savings for the taxpayer, we are open to that. And if it is 
policy, as well, if you want to repeal anything or move 
something out of the way, know that we are open to joining with 
you in that effort.
    And, Mr. Chairman, I have this letter I would like to 
submit for the record.
    [The information follows:] 
    [GRAPHIC] [TIFF OMITTED] T6636A.039
    
    Mr. Kingston. Do you want to yield any time to the Under 
Secretary to answer the car question that Mr. Farr asked?
    Mr. Graves. That would be fine.

                                VEHICLES

    Mr. Sherman. One aspect of the car question is that, in 
these offices, these 2,000-plus offices that we have around the 
country, we are sharing these offices with FSA and with Rural 
Development and with the districts. And these vehicles are 
being used by all of the agencies. So one of the things we are 
looking into is the extent to which these other agencies are 
using the vehicles.
    But, obviously, we are focused on the numbers that you 
mentioned, Congressman Farr, and we are going to try to get 
that number down.
    Mr. Farr. It is in your budget.
    Mr. Sherman. It is in our budget, but these other agencies 
are using these vehicles.
    Mr. Kingston. The chair would yield to Ms. DeLauro a point 
of personal privilege.

              EXPRESSION OF APPRECIATION FOR BRIAN RONHOLM

    Ms. DeLauro. Thank you very, very much, Mr. Chairman and my 
colleagues and our witnesses this morning.
    I just wanted to--it is kind of a bit bittersweet for me 
today, as well as at the end of the week, when a very, very 
trusted and loyal staff person named Brian Ronholm, who has 
been with me for 5 years and has sat through thick and thin and 
through all the efforts that we try to make in the Ag 
Subcommittee--and he has taken this on.
    You know, I often say that the Members get a chance to 
speak from these microphones and we get a chance to stand up 
and to speak and we get recognized for what we do, but it is 
that same sense of passion for issues, the same caring, the 
same kind of, and in some respects more, diligence goes into 
the efforts that we, as Members, try to make. And our staff, 
they have the same kinds of values that Members have in making 
the fights and the issues that we take on.
    And they are oftentimes the unsung heroes. I want to say, 
personally and publicly, that for whatever our opportunities 
were to make some progress on the Agriculture Subcommittee, Mr. 
Chairman and fellow Members, that Brian Ronholm holds the 
lion's share of that accomplishment. And I couldn't ever have 
done the job without him.
    He is going to work for USDA, which is your gain, for FSIS, 
an area that has been near and dear to our hearts over the last 
several years.
    So, Brian, many, many thanks, and Godspeed. And we know you 
will do an outstanding job, and you will be briefing someone 
who is sitting at that table in the not-too-distant future. 
Thank you very, very much.
    Mr. Kingston. I think we should have him come up to testify 
quickly. And Mr. White has already outlined what a joy it is, 
so we need to get him up here. And I plan to ask you a lot of 
hard questions, too.
    But, Brian, we appreciate, on the majority side and as we 
were on the minority side, we appreciated working with you over 
the years and all your professionalism and the fact that you 
have always been accessible, straightforward, and diligent and 
extremely knowledgeable. So it is a great pickup for the USDA, 
and I know it is a great loss for Rosa's office. And we wish 
you well.
    [Applause.]
    Mr. Kingston. Ms. DeLauro.

                 CHANGES IN MANDATORY PROGRAM SPENDING

    Ms. DeLauro. Thank you, Mr. Chairman.
    I am concerned, as others have expressed their views, on 
the level of changes in mandatory program spending, the CHIMPS, 
if you will, that are in the President's budget request.
    According to CBO, the 2012 request would reduce farm bill 
conservation spending by $4.7 billion over the course of the 
next 10 years and $2.5 billion over the 5 years of the 2012 
farm bill that we will be covering next year. That puts a very 
big hole in which to put conservation and environmental 
protection efforts.
    Now, I realize there are times when we have to make modest 
CHIMPS, but, as I read this, we are talking about a really very 
serious--in the billions of dollars here. So we make those 
modest CHIMPS in order to achieve the priorities that we are 
called on to address. But the size of the cuts that are 
proposed in the request, the long-term impact of the proposed 
cuts, in my view, may be too extreme.
    And I also think it is a little unfair to single out the 
conservation title alone among the titles of the farm bill. If 
we need to make changes to mandatory spending programs in the 
context of the appropriations bill, then we should be willing 
to take a look at all of the farm programs and not just single 
out conservation.
    And my two questions in this regard are: What is going to 
be the impact of these CHIMPS on the conservation programs? 
What kind of impact would it have on the natural resource 
conservation and environmental protection in general?
    We look at Wetlands Reserve, $365 million. I mean, it goes 
on. You know the numbers, you know, probably better than I do. 
But my questions: impact of the CHIMPS on conservation 
programs, impact on natural resource conservation and 
environmental protection.
    Mr. Sherman. Well, Congresswoman, we really do share your 
concern about the degree to which some of these programs will 
be affected. But it is a reflection of the difficult budgetary 
times we are in.
    Ms. DeLauro. I understand that. But my question is not 
about the difficult budgetary times, because that gets us to 
process versus substance. What I am interested in is the 
effect, short-term, long-term effect, which is I think what we 
need to focus on in order to be pennywise and pound-foolish, if 
I might say that.
    And I just would like to--you know, what is the impact of 
this scale of cut on conservation programs that, as has been 
pointed out, have been successful programs? And maybe some not, 
but you could, you know--there is a way to deal with--everybody 
wants to take a look at what doesn't work, what does work, and 
be effective about that.
    Long-term effect; and on conservation and environmental 
protection in general.
    Mr. Sherman. Well, the effect is, it will involve a delay 
in implementing a variety of programs that we are currently 
pursuing. So, with respect to the EQIP program, I think the 
change in mandatory program--CHIMP--is somewhere in the 
neighborhood of $350 million.
    Ms. DeLauro. Three hundred and forty-two, yeah, million 
dollars, right.
    Mr. Sherman. With the WRP program, that is probably another 
$350 million, approximately.
    Ms. DeLauro. Yeah.
    Mr. Sherman. So for these programs--their implementation, 
in certain respects, will be delayed. And the benefits that 
come from these programs will, in fact, be delayed.
    Ms. DeLauro. And you find that you do derive benefits from 
these programs; is that correct?
    Mr. Sherman. Absolutely.
    Ms. DeLauro. Absolutely. So the delay in those benefits 
creates what for the longer term?
    I am of the view that, when you cut back on what is I 
consider infrastructure pieces, which allow you to build a 
framework in which you can go forward, you can almost never 
rebuild the infrastructure that you need to carry on once it 
really is significantly delayed or impaired in any way. And 
that is true in rail or in roads and bridges, in the defense 
industry, which I represent.
    So what about this infrastructure that these programs 
provide to all of these areas? What happens?
    Mr. Sherman. Well, I refer to this as the Nation's green 
infrastructure.
    Ms. DeLauro. Right.
    Mr. Sherman. And it is as important as roads and bridges--
--
    Ms. DeLauro. Amen.
    Mr. Sherman [continuing]. And schools and hospitals and so 
forth. But what this means is that the ecosystem services, the 
benefits, the environmental benefits, that come from these 
programs will be delayed, in terms of clean water, clean air, 
benefits to wildlife, benefits to drinking water.
    Ms. DeLauro. Okay. So it is a negative impact on those 
efforts.
    Mr. Sherman. It is a negative benefit.
    Ms. DeLauro. Thank you.
    Mr. Sherman. But our hope is, in better times, we will be 
able to expand these programs and move forward.
    Ms. DeLauro. Thank you.
    Mr. Kingston. The gentlewoman's time has expired.
    Mr. Farr, do you want a point of personal privilege?

                EXPRESSION OF SYMPATHY TO TROY PHILLIPS

    Mr. Farr. Thank you.
    I don't want to step on a great message here or wonderful 
message, but you all know my aide that has been with me in this 
committee for years and years, Troy Phillips, and Troy has had 
a year of disasters. His father died, and his grandfather died, 
and his aunt and uncle died. And last Friday, he found out that 
his brother was killed in a motorcycle accident.
    Ms. DeLauro. Oh, my word.
    Mr. Farr. So that is why he is not here today. But I hope 
when he comes back that you will all--yeah, because he has gone 
through a lot this year, and it is real tough.
    So thank you. I mean, I knew you all know him, so thank 
you.
    Mr. Kingston. Troy is another great staffer and somebody 
that we enjoy working with. And our thoughts and prayers are 
with him and his family.
    Mr. Farr. Thank you, Mr. Chairman.
    Mr. Kingston. Ms. Lummis.

                         SAGE-GROUSE INITIATIVE

    Mrs. Lummis. Well, thank you, Mr. Chairman.
    As everybody on this committee knows, I am a tightfisted 
tough cookie when it comes to spending. But I rarely say I 
would like to sit next to Mrs. DeLauro, but on her comments 
that she just made, I would like to sit next to Ms. DeLauro and 
work on these programs.
    Because the NRCS, in my State--and I want to commend NRCS 
in Wyoming. What great staff people you have. They do a 
wonderful job. The technical assistance that they provide is 
significant and instrumental. And especially with some of the 
things we are grappling with like sage grouse, trying to keep 
them off the Endangered Species list. ESA in the West, the 
conservation technical assistance is widely acknowledged by 
Wyoming farmers and ranchers as significant.
    And so, a rare expression of kudos. And thank you, Ms. 
DeLauro, for your comments.
    I want to ask some questions about a few of these programs.
    First of all, the sage grouse initiative. Your voluntary 
conservation program provides regulatory certainty for 
ranchers. And so they can help prevent the sage grouse from 
being listed under the ESA. But if it is listed, they know, 
because of these programs, that they will be able to continue 
ranching on their land in the future.
    Now, can you describe to this committee how that guarantee 
of regulatory certainty for volunteer landowners affected the 
participation rate?
    Mr. White. I would say it really helped.
    Earlier, I mentioned in my opening remarks that Fish and 
Wildlife Service really was outstanding in this. They, for the 
first time ever, did a conference report that offered that 
certainty. And they didn't do it on a piecemeal basis; they did 
it globally.
    So I think when you take the fear of regulation out of 
these issues, you dramatically increase the participation and 
the willingness of producers to do this.
    Mrs. Lummis. Well, I couldn't agree more. It has really 
made a huge difference in my State.
    With regard to conservation technical assistance, could 
some of the program payment dollars be used to match additional 
technical assistance dollars coming from fees?
    What I heard during--there was stimulus money that was put 
out, and the NRCS was trying to shove money out the door. And 
ranchers and farmers in Wyoming were saying, we want the 
technical assistance more than we want the money. Matching?
    Mr. White. Yes, we are trying to do it. And it relates to a 
proposal Mr. Farr was talking about earlier, the Strategic 
Watershed Action Teams, where we are actually putting Federal 
funds out to see if there are local partners willing to match 
it.
    And in the sage-grouse area, they are doing more than a 
one-to-one match in the sage grouse area.
    And what it means is there will be more boots on the ground 
to do these projects. They won't have a Federal foot in that 
boot, but it would still be direct assistance to the producers. 
So we are trying that to leverage the Federal dollars.

                         CONSERVATION PROGRAMS

    Mrs. Lummis. Okay.
    A question about conservation programs and how they might 
be more effectively administered: Around Wyoming, ranchers and 
farmers are telling me they would like to see the CRP program 
scaled back and the FRPP program either preserved or have some 
combination of these programs.
    And when it comes to conservation programs, would providing 
States more flexibility allow us to get more bang for our buck 
with Federal dollars?
    Mr. White. Well, when you look specifically at the Farm and 
Ranch Lands Protection Program--FRPP--, the final rule gives a 
whole bunch of flexibility to the States. We have really tried 
to accommodate State needs and interests in there.
    Regarding the CRP, I think all these programs, within the 
context of the 2012 Farm Bill, are--it is a perfect opportunity 
to look at consolidation, streamlining, efficiency gains. And 
if we can't do that kind of stuff in the budget climate we are 
in, when can we do it?
    Mrs. Lummis. Exactly. Yeah. And I just want you to know 
that, in my State, I hear from ranchers and farmers all over 
the State that we ought to scale back CRP and keep FRPP. 
Anyway, that is just a--excuse me.
    Mr. Sherman. Yes, Representative Lummis, if I can also 
point out, the President's 2012 budget with respect to FRPP 
does call for authorized levels of funding.
    Mrs. Lummis. Okay.
    Mr. Sherman. That is $200 million going forward.
    Mrs. Lummis. Thank you.
    Mr. White. And, Ms. Lummis, that picture up there? I would 
defer to a range conservationist, but I think that is 
cheatgrass, that brown grass?
    Mrs. Lummis. Indeed. I recognize that.
    Mr. White. It is from Asia, I think. It is terrible.
    Mrs. Lummis. And after a fire, it just goes crazy.
    Mr. White. If there is a fire that goes through there, it 
will be 50 years for that sagebrush to come back.
    Mr. Sherman. We will be happy to provide you with another 
photograph, an after photograph.
    Mr. Kingston. Submit some samples.
    Mr. Bishop.

                           FARM BILL PROGRAMS

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Let me welcome the panelists. Good to see you again, 
especially Mr. White. You have been made an honorary Georgian. 
Thanks a lot for what you do.
    And based on the feedback from a number of our State's 
producers, I would like to share with you how they believe that 
our State benefits from the leadership of NRCS in several areas 
of conservation, including the Agricultural Water Enhancement 
Program. $1.38 million has been invested for innovative 
conservation practices, particularly in the Flint River 
district; and the EQIP program, which provided nearly $17 
million to promote agricultural production, forest management, 
and environmental quality.
    My question centers on the effectiveness of these programs, 
which are both mandatory and discretionary farm bill programs, 
in meeting their stated objectives. Just tell us--of course, I 
know, but just for the record--why should the U.S. taxpayer 
continue to support these programs? And what has been the 
positive return on investment to taxpayers for every dollar 
that is spent in the programs?
    Mr. White. If you look at Flint River, that is an area 
where there is groundwater depletion. It is tied up with 
Atlanta's water supply, which is kind of a crucial issue. And 
the producers there, I think, are doing some of the absolutely 
most cutting-edge irrigation water efficiency in the country.
    You have the groundwater moisture sensors, where when the 
pivot goes around it reads the moisture, it shuts it off, it 
turns it on, it lowers it down. It is extraordinary, the water 
savings that those farmers are doing. And what it means to the 
water supply of Atlanta is important. All of us need water. And 
it is just some incredible work that your producers are doing.

                      NATIONAL RESOURCES INVENTORY

    Mr. Sherman. Congressman Bishop, if I can just supplement 
that, I mean, beyond Georgia, nationally--we just released this 
year, this past year, the National Resources Inventory. This is 
an inventory based on 800,000 geographic reference points in 
the country, and it reflects progress over a period of 30 
years. And without question, there is enormous progress being 
made with sediment reduction, nitrogen reduction, phosphorus 
reduction.

                CONSERVATION EFFECTS ASSESSMENT PROGRAMS

    Similarly, the Conservation Effects Assessment Projects are 
showing dramatic benefits that are coming from the application 
of these suites of conservation practices.
    So I think we are beginning to see through these 
assessments that this work is important and it is paying off.

                        LONGLEAF PINE INITIATIVE

    Mr. Bishop. Thank you.
    Can you tell us about the Longleaf Pines initiative, which 
I understand was funded at $5.7 million, to assist producers 
with both managing and re-establishing the Longleaf Pines?
    As you know, Georgia pines have a long and storied history, 
and timber production has always been vital to agriculture in 
Georgia.
    Mr. White. Well, Mr. Bishop, the Longleaf Pine actually 
helped build this Nation in its early years. It produced the 
stores to keep the wooden ships afloat. It built Savannah and 
Williamsburg. It is a long-grained, rot-resistant, wonderful 
pine. And we had over 90 million acres, and now we are down to 
about three million acres. And this is certainly an effort to 
restore that ecosystem of the Longleaf.
    We think it is commercially viable now. If you look at a 
Longleaf forest where it grew up under a fire regime, it was 
almost like a savannah. I don't know how many hundreds of 
species live in a vibrant Longleaf Pine forest. And if it can 
make income for producers and produce all these environmental 
benefits, it is certainly something I believe we should 
continue to support.

                          FINANCIAL MANAGEMENT

    Mr. Bishop. Thank you.
    In the past, the inspector general has criticized the 
Department for deficiencies within the Department, in 
particular, the need for improvements of overall financial 
management. One of the specific areas cited was management of 
contracts. In Georgia, NRCS has over $36 million in obligated 
funds for 2,100 contracts for fiscal year 2010 funding.
    Do you expect any issues or any problems with these 
contracts? Do you expect any cancellations or any other issues 
due to funding reductions?
    Mr. White. No, sir, I do not.
    Mr. Bishop. Thank you very much.
    I think my time has expired. Right on time.
    Mr. Kingston. Thank you, Mr. Bishop.
    Mr. Under Secretary, I wanted to ask you about the 
Inspector General's report in December 2010. It was very 
critical. It says, for the third year, that the NRCS has 
received a report in which the inspector general issued a 
disclaimer on the financial statement and identified a number 
of significant deficiencies, including accounting and controls 
over undelivered orders; accounting and controls over the 
revenue and unfilled customer order process; accounting and 
controls over accrued expenses; controls over financial 
reporting; accounting and controls for property, plant, and 
equipment; general and application controls on the environment; 
and controls over purchase and fleet car transaction.
    And I think what is disturbing about this is that it is the 
third year. And so, two questions: How did we get in this 
situation? And what is being done about it?
    Mr. Sherman. Thank you, Mr. Chairman. Let me make a few 
general comments about this, and then I would ask for Chief 
White to go into some of the specifics here.
    This agency has seen a three- to fourfold increase in its 
budget since 2002. And this is an agency that is also 
experiencing the implementation of many new programs that did 
not exist prior to 2002.
    The agency clearly realizes the importance of 
accountability and transparency, and this audit report 
continues to show that we have work to do. We have important 
work to do to get to where we can be fully accountable for how 
we are spending the taxpayers' money.
    But I want to point out that we are at least gratified that 
there has yet to be any showing of mismanagement, fraud or 
Federal monies being misspent. We need to do a better job, 
though, with respect to transparency and accountability, and we 
are working very hard to that end.
    I would appreciate if Chief White could just take you 
through these different areas of the audit, because I think the 
agency is doing its best to address each and every one of them.
    Mr. Kingston. Thank you.

                             AUDIT FINDINGS

    Mr. White. First, Mr. Chairman, no excuses. The Under 
Secretary is right; we have to do a better job. We are on that 
pathway.
    In 1980 the Chief Financial Officer Act was passed. USDA 
had to undergo an audit at that time, and there were three 
agencies--RD, the Food and Nutrition Service, and the Forest 
Service--all had to have independent audits.
    If you fast-forward to 2007-2008, we were the first agency 
to have our own standalone audit since 1980. And it generally 
takes from 5 to 10 years for an agency to move from the first 
audit to a clean audit. We are in year 3 of that process.
    That said, there are seven material weaknesses that you 
talked about. I brought this here. I will call this the mother 
of all audit remediation plans. This is how we are going to 
address the issue this year.
    Each one of those seven deficiencies has one of the top 
NRCS senior executives owning it. Every State conservationist 
in the country is on one of those teams. There is one team for 
each of the seven deficiencies. And then there is an eighth 
team, headed up by our Management Deputy Chief, which is the 
crosscutting team providing the training, the policy 
coordination, where the CFO will make the decisions.
    We think that we can take care of three of them this year, 
and then we would be down to four. We think we can take care of 
the reimbursable contracts. We have centralized those in three 
locations. We pulled them out of all 50 States and put them in 
three, and April 1st we are standing up the consolidation unit. 
We think that with the purchase cards, we are probably there, 
but we want to make darn sure before we give our auditor that 
information. And then the other one I think we can fix is the 
security access.
    Mr. Kingston. Where does the buck stop? Who is in charge?
    Mr. White. Me.
    Mr. Kingston. So if next year this is still--you get a 
fourth year that is this bad, what will happen to you?
    Mr. White. I will offer my resignation to Secretary 
Vilsack.
    Mr. Kingston. I would think that would be fair, to the 
degree that it has to be changed. And knowing that you do have 
that earnestness and drive to change something, do you feel 
that there are stumbling blocks underneath you that are going 
to prevent you from making that happen? Not your resignation, 
but correction.
    Mr. White. I have thought about resignation. Stress level 
goes down, life expectancy goes up. It is not all that bad.
    But, yes, Mr. Graves touched on it. We have to change some 
of our business processes. We cannot survive with 1960s and 
1970s business processes. We have 51 financial units. How do 
you corral that many? We are going to have to do some sort of 
consolidation. I don't know if it is in 1 or in 20 or 5 units. 
But we are going to have some business process change if we are 
going to fix this thing for the long term.
    Mr. Kingston. Well, my time has expired.
    Mr. Farr.

                    STRATEGIC WATERSHED ACTION TEAMS

    Mr. Farr. Yeah, there are two questions I want to get into. 
I want to follow up on the SWAT team proposal and also on the 
cutting out of the funding for RC&D.
    First of all, on the SWAT team, what I understand from your 
budget authority is that you are going to--perhaps, it says, 
that the two possible programs in regions would be the Bay 
Delta and the Upper Mississippi. And then you go on to describe 
the SWAT team: 5- to 7-member teams, working for 3 to 5 years, 
putting all these experts on the ground, goal is to reach every 
landowner in the region, high-priority watersheds where you 
have nitrogen loading. And although you don't put it in there, 
I think you ought to also put one that would relate it to food 
safety, because it is certainly a high priority with everyone 
else.
    And what I am upset about is that all of the reasons you 
are putting together this SWAT team is why we did it before you 
ever had a program like this. We put that together in the 
greater Monterey Bay area and now have six, seven counties, the 
largest in the United States, that have been involved in this 
program, and it has been going on for about 10 years.
    And it is everything that you want to do. And we did it--
yes, we did it through earmarks because there was no program 
like this.
    So I am excited that you are doing--I think you are moving 
in the right direction. But I don't want to see you pull the 
rug out from under the people that are doing the very thing 
that you have and have gotten that buy-in from all those 
landowners and have gotten that regional politic. In fact, it 
is the only press conference I go to annually where the 
watershed quality report is put out, where the marine 
scientists and the ag scientists, essentially the soil 
scientists, and the farmers are leading it, and they are 
praising these environmental scientists. You don't find that 
anyplace else. I mean, it never happens. They are the enemy. So 
it is a wonderful buy-in where people realize, yes, I can do 
better farming and have less adverse effects from it.
    So, I mean, go back and look at the criteria when you are 
selecting your areas. And I would hate to see you pull the rug 
out from what is everything that you outline in this program.
    And I would like you to add one other thing, is that in 
those regions we have--the specialty crops we grow are called 
coastal crops. It is the cold-climate crops. It is all the 
things that go into a salad. That is why my district is called 
the ``salad bowl capital in the world.'' Every salad you eat 
today anywhere in the United States comes from the Salinas 
Valley. And that lettuce and broccoli and all those things were 
picked 3 days ago, and they are here today.
    What has come up is that a lot of those, particularly 
lettuce, is not a kill-step process. You don't cook it. So we 
have a whole new program. And we have had Dr. Hamburg out 
there, from FDA, just amazed at, sort of, the laboratory. You 
have to get suited up to go into a field now to pick anything. 
You have to wear, just like you do in surgery, gloves and masks 
and the hair nets and everything.
    And this is a high priority for the State of California and 
for the United States in food safety. So this watershed, 
because it has to deal with water quality and nitrate buildup 
and all kinds of other things, of wildlife getting into the 
fields, I mean, it is just the perfect laboratory.
    And I am just making a plea, when you go back--and I will 
tell you, what sells you--what Mrs. Lummis was talking about--
what sells you on the ground is the professionalism of your 
people. You have one of the guys that I have just been so 
impressed with, Daniel Mountjoy. I think he is one of the most 
outstanding public servants I have ever met--a big, burly guy 
who looks like a big old bear. He has had some horrible 
tragedies; his wife just passed away and all kinds of things. 
But I will tell you, there isn't a farmer in the area that 
doesn't respect and call upon Daniel Mountjoy, because he is a 
very practical guy. And he is the kind of guy that has built 
this whole infrastructure base out there.
    So, again, I am pleading with you to go back and look at 
that. And if you pull the rug out from under that, you will 
have me as your enemy forever and ever.

                 RESOURCE CONSERVATION AND DEVELOPMENT

    Now, to the second question. Secretary Vilsack was here 
and, I think, made a very interesting statement about how he is 
trying to create a new rural strategy for America because rural 
America has been in a depression for the last 10 years.
    Why, in building that rural strategy, would you cut out the 
RC&D? I mean, you look at the statistics of the number of 
people employed, the number of programs--it is the recovery 
plan for rural America. Now, did you cut this out because you 
were ordered to, or do you really believe we ought to get rid 
of it?
    Mr. White. First, I will commit to you to find out more 
about what is going on in your watershed area and work with Ed 
Burton. Because you are ground zero on food safety, and I know 
the co-management that we have to do.
    Regarding the RC&D, this is a proposal that has been around 
for 4 or 5 years. It was certainly developed and put in before 
my term. And I certainly support the President's budget.
    [The information follows:]

    NRCS is committed to the best of our ability with available 
resources to help the landowners deal with increasing regulatory 
pressures and environmental challenges in critical watersheds such as 
the Monterey Bay area.
    We expect the majority of the existing RC&D Councils will decide to 
adjust positively to this change in support from NRCS and continue to 
operate successfully as nonprofit corporations. However, in the absence 
of USDA support, more of their efforts will be directed toward 
obtaining funding for office overhead and staffing. This may 
temporarily have the effect of limiting other accomplishments, 
including rural job creation, but we expect most of the councils will 
overcome this short term effect and continue to implement projects that 
foster the creation and retention of jobs in rural areas.

    Mr. Kingston. The gentleman's time has expired.
    Mr. Latham.

                  CONSERVATION PRACTICES: 590 STANDARD

    Mr. Latham. I think the answer is, how do you spell 
``OMB''? But, anyway.
    First of all, welcome, everyone.
    According to the 590 standard, which was issued in January, 
it says, ``Nutrients shall not be surface-applied except under 
emergency provisions in accordance with State law to frozen 
and/or snow-covered soils during seasons of high run-off 
potential or during periods of winter dormancy,'' end quote.
    This obviously is a major concern for a lot of cattle 
producers in the upper Midwest and, I would guess, throughout 
the West also, because it prevents land application of manure 
for all but just a very few days of the year.
    Under this definition, isn't the entire winter and spring 
periods when you couldn't apply manure?
    Mr. White. Well, first, I am all over this issue, Mr. 
Latham.
    Mr. Latham. Good.
    Mr. White. We have 149 standards in NRCS. And every single 
one of them gets updated with current science about every 5 
years. The 590 standard, without question, is the most 
controversial one because it deals with nutrient management.
    For almost a year, we have been through several iterations 
of drafts that have been given to the agriculture groups, the 
conservation groups, and agencies. We have published it in the 
Federal Register and received hundreds of comments. And in a 
couple weeks, they are supposed to be bringing me the final 
recommendations.
    I am very aware of the issue of where the 590 says you are 
not supposed to put manure on frozen ground. I understand this 
could have a huge impact on the producers in the northern 
climes: New England, Minnesota, Montana, Wyoming, anywhere like 
that.
    There are other issues in there, too, that I have heard 
complaints about. For example the draft says once you reach 10 
times the phosphorous in a soil, stop application. There are 
producers in the southern no-rainfall zone that say, ``What do 
you care? We don't get any rain. We are 60 miles from a 
creek.''
    So what I am thinking about doing, Mr. Latham--most of our 
standards are national in scope, but this one is so 
controversial. It is controversial not because we just use it 
for our voluntary programs, but regulatory agencies sometimes 
take our standards and use them in regulatory programs because 
the science is so darn good. So I am actually thinking we may 
need to regionalize this so we can address those cold-weather 
issues. Otherwise, these producers are going to have to build 
huge storage areas for the manure over winter. We are going to 
have to look at the southern issues, where it never freezes.
    There are a lot of things that I am very aware of, Mr. 
Latham. And, God willing, we will have something out there that 
can work for agriculture and protect the environment no matter 
what region of the country you are in.
    Mr. Latham. And is there any estimate--did you do a cost-
benefit analysis or any kind of estimate as far as cost to the 
producers----
    Mr. White. No.
    Mr. Latham [continuing]. If they cannot apply manure, to 
store, stockpile manure?
    Mr. White. No.
    Mr. Latham. So what are they supposed to do with it during 
these months when they can't apply it?
    Mr. White. Well, if you are in the South, it doesn't 
matter; you just put it on pretty much anytime.
    But the agriculture groups that have come forward in 
opposition to this say it would be hugely expensive to have to 
build structures to store it. So, a concrete tank, an earthen 
container, someplace where you would have to store it.
    But I am cognizant of that, and I think we should work with 
the State authorities on this issue, the conservation 
districts, and try to come up with a way that would tailor this 
standard for different regions of the country to take into 
account, what do you do if the ground is frozen for--I mean, 
Montana, it is frozen, like, 8, 9 months of the year.
    Mr. Latham. Well, and in a place like Iowa, where, if you 
can't apply it in the winter--I mean, I understand if you drive 
around some areas, you will smell, obviously----
    Mr. White. Oh, yeah.
    Mr. Latham [continuing]. The manure out there. But if you 
can't apply it in the winter or the spring, and in Iowa the 
rest of the year or, at least, you know, through the summer 
months, you are in production on that land, so you can't apply 
it then, so you have to spend a tremendous amount of money to 
have facilities to stockpile this until fall or something?
    Mr. White. Understood. Now, the other side of the coin, I 
have also gotten letters from environmental groups who say we 
are complete sellouts and this would destroy the environment. 
So there has to be some answer in there, and I think a regional 
approach may be the way to go.
    Mr. Latham. May be--excuse me?
    Mr. White. Maybe the way to address this is to have the 
States work it out with their partners in that locale.
    Mr. Latham. I thank the gentleman.
    Mr. Kingston. Ms. DeLauro.

                      FOOD SAFETY AND CONSERVATION

    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. White, in your testimony, you mentioned that one area 
that NRCS is pursuing is the intersection between food safety 
requirements and the important conservation work accomplished 
by farmers and ranchers. You also mentioned that you are 
collaborating with AMS and FDA on co-management of 
environmental stewardship on farm product safety guidelines and 
regulations.
    You outlined the current areas of collaboration, such as 
the produce safety alliance, produce safety rule development 
and implementation, and education outreach. Can you explain in 
detail what some of this collaboration involves? What are the 
conservation goals that NRCS is trying to achieve with these 
collaborations? And can you also outline situations where food 
safety goals and conservation goals conflict and how they get 
resolved?
    Mr. White. Yes. This goes back to Mr. Farr's area. Remember 
the 2006 spinach E. coli outbreak?
    Ms. DeLauro. Remember it well.
    Mr. White. That led to the leafy-green marketing order. And 
what we were seeing then was, where farmers had put in buffers 
or riparian area protection, ponds for wildlife or air-quality 
benefits or water quality, something like that, and they were 
faced with: You choose between food safety and conservation. 
And a lot of them were just ripping out conservation practices.
    The Food and Drug Administration has authority for this. In 
USDA, the lead is the Agricultural Marketing Service--AMS. They 
have asked us in. They have opened the door for our 
participation.
    Cornell University has a term of art, like ``best 
management practices'' in this area. So we are on the steering 
committee. In fact, Thursday of this week, the Secretary's 
office is convening a meeting with the Food and Drug 
Administration--FDA--and NRCS and AMS and the Agricultural 
Research Service--ARS, the researchers, to talk about this 
issue.
    So what we are hoping is that we can achieve both, where 
you have the good things we want for the environment and also 
the food safety that we must have.
    Ms. DeLauro. Uh-huh. Are you looking to set out some 
national criteria? Because, otherwise, as Mr. Farr knows from 
that prior time, the folks are on their own to put something 
together in order to safeguard their efforts and come up with, 
you know, marketing orders, et cetera.
    But at the Federal level, is there an intent to try to lay 
out some criteria guidelines or standards?
    Mr. White. Yes. FDA is supposed to come out with a rule 
sometime in 2011.
    Ms. DeLauro. Okay.
    Mr. White. I don't know what that is going to contain, at 
this point, but I know that they have opened the door for us, 
and we are very grateful. And we will be advocating for 
conservation throughout that process, ma'am.
    Ms. DeLauro. Thank you. Well, we will follow it.
    Mr. White. And we will be calling Daniel Mountjoy for 
advice on how to do it.
    Ms. DeLauro. I would just submit to you, because I can't 
let the opportunity go, that, with all of the agencies that are 
involved, wouldn't it be simpler, the whole process would be 
simpler if we had a single food safety agency?
    Mr. Kingston. Now, that is an idea we haven't heard.
    Ms. DeLauro. An idea whose time has come. Anyway--in so 
many regards, including deficit reduction, I might add.
    Mr. White. Well, don't you think we should have a little 
bit of conservation input, though?

                 RESOURCE CONSERVATION AND DEVELOPMENT

    Ms. DeLauro. I am happy for the input, but at one agency. 
So we can build in a capacity in an agency to do that.
    Let me just talk about the RC&D program. It was eliminated. 
And you are right, it has come up before, and every year we 
bring it back.
    You say the same goals can be achieved through other USDA 
programs, partner investments, local project sponsors. Can you 
outline how this will be done with resource conservation and 
development?
    RC&D focuses on energy resource management projects, waste 
management utilization projects, community improvement 
projects, economic development water projects. Can all of these 
areas really be covered by other programs or partner 
investments?
    Mr. Sherman. Well, let me start and then see if Dave wants 
to add anything to that. I do believe that most of the goals 
and mission areas of RC&D are addressed in a variety of the 
programs that we have.
    Ms. DeLauro. I won't have enough time for you to list them, 
but I would like to know where those--if you can get for us, 
where you pick up the slack if RC&D is gone.
    Mr. Sherman. We would be happy to provide that to you.
    Do you want this now?
    Ms. DeLauro. No, no. I was just--is there anything else you 
want to, you know, add about--the light went off. I am going to 
assume it is a red light here.
    Mr. Kingston. Your time has expired.
    Ms. DeLauro. Okay. So if you just would get us that 
information, it would be very helpful.
    Mr. Sherman. We will get you that information.
    [The information follows:]

    Resource Conservation and Development (RC&D) Councils 
implement natural resource and community improvement projects 
with funding from various sources including private and 
corporate foundations, state and local agencies; and various 
federal agencies including USDA's Agricultural Marketing 
Service, Food and Nutrition Service, the National Institute of 
Food and Agriculture, Forest Service, and Rural Development. 
These programs complement the technical assistance provided by 
NRCS.
    Federal funding sources outside of USDA that contribute to 
RC&D Council projects include: the Environmental Protection 
Agency, Department of the Interior, Bureau of Land Management, 
Fish and Wildlife Service, Department of Energy, Department of 
Transportation, Department of the Army, Department of the Navy, 
Department of Health and Human Services, the National Historic 
Preservation Program, National Endowment for the Humanities, 
and the Department of Housing and Urban Development. Since RC&D 
Councils compete for these Federal funds along with other non-
profit organizations, we do not have information on the funding 
levels of the numerous grant programs of these departments and 
agencies that may be awarded to RC&D Councils in FY 2012.

    Ms. DeLauro. Thank you.
    Mr. Kingston. And, also, if I could add on the councils 
that disappear and the councils that don't disappear, that 
assumes some councils are more equal than others or some are 
doing a more effective job. And if you could address why 
certain councils will remain and certain ones won't, that will 
be helpful.
    Ms. DeLauro. Is that right? Certain councils will remain? I 
thought it was all eliminated.
    Mr. Sherman. We don't know which councils will continue. If 
this funding is eliminated, I assume there will be certain 
councils which will, through voluntary efforts or through other 
fundraising efforts, what have you, partnership efforts, will 
find coordinators to continue to run their activities.
    But in the event that you eliminate this from the budget, 
we will report back to you as to which councils continue and 
which councils----
    [The information follows:]

    NRCS does not have information on the financial strength of 
each of the nonprofit RC&D councils. We expect the majority of 
the existing Councils will decide to adjust positively to this 
change in support from NRCS and continue to operate 
successfully as nonprofit corporations. For several years USDA 
has partnered with the National Association of Councils across 
the country. Many councils have increased their partnerships 
and financial portfolios so that they are less reliant on NRCS 
direct technical and financial assistance.

    Ms. DeLauro. But they won't be continued with Federal 
dollars.
    Mr. Sherman. Well, the payment for coordination, the hiring 
of the coordinators, would not continue.
    Ms. DeLauro. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kingston. Mr. Graves.

                      CONSERVATION RESERVE PROGRAM

    Mr. Graves. Thank you, Mr. Chairman.
    And forgive me for my lack of institutional knowledge. I 
still have a little bit to gain. But I was curious, if you 
could explain, there is a line item called ``other planning and 
application'' that nearly doubles from 2010 to 2012. What 
drives that? And I guess that is the mandatory side?
    Mr. White. What chart are you on, do you know? 
    Mr. Graves. Page 25-16 of the explanatory notes.
    Mr. White. Okay. Getting there.
    We think that is the technical assistance for the 
Conservation Reserve Program. The program is administered by 
the Farm Service Agency, but we do most of the technical work. 
So, as they have this new signup, that would be an increase 
that is not going to happen every year. That is only when they 
would have large, multi-million-acre signups.
    Mr. Graves. So what is driving that large increase?
    Mr. White. They announced they are going to sign up 4 
million acres into the program. And this would be a person 
going out, working with the farmer, developing the seeding 
recommendations, the plans that need to be developed, that kind 
of stuff.
    Mr. Graves. And I guess, where is that coming from? Who is 
requesting the additional acreage?
    Mr. White. We work with the Farm Service Agency to develop 
those costs, so it would be coming from us both. The funding 
source would be the Commodity Credit Corporation.
    Mr. Graves. And so, is it formula-driven? I mean, what 
makes it mandatory?
    Mr. White. It is basically acre-driven and number of plans 
projected. And I cannot remember the amount per plan off the 
top of my head.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6636A.040
    
    [GRAPHIC] [TIFF OMITTED] T6636A.041
    
    Mr. Graves. So is it mandatory or not mandatory?
    Mr. White. This is mandatory spending. The source of the 
money is from the Commodity Credit Corporation--CCC.
    Mr. Graves. So I guess there is another authorizing 
committee that has put something in place that drives it to 
this new level----
    Mr. White. No.
    Mr. Graves [continued]. To get the formula? Or is it----
    Mr. White. It is Farm Bill funding. So it would be the same 
funding source as EQIP or Wildlife Habitat Incentives Program, 
things of that nature.
    Mr. Graves. Okay.
    Thank you, Mr. Chairman.
    Mr. Kingston. Mr. Bishop.

                 RESOURCE CONSERVATION AND DEVELOPMENT

    Mr. Bishop. Thank you very much.
    It is my understanding, still on the RC&D, that as a result 
of the proposed elimination of RC&D that Georgia will lose 
approximately 10 NRCS staff persons. And while these employees 
may be transferred to other positions in the agency, what will 
the practical impact of these staff losses be in terms of 
program support?
    Mr. Sherman. Okay, these 10 individuals, we will make an 
effort to reassign them to other work for which they are 
qualified. Some of----
    Mr. Bishop. Same State?
    Mr. White. That would be my goal.
    Mr. Sherman. That would be our goal.
    And some of these people may be eligible for retirement. 
Some of them may be eligible for early retirement. Prior to 
your getting here, we talked about a buy-out program, an early 
buy-out program that the government has.
    So we will make every effort to try to find a place for the 
employees who wish to remain within the NRCS system.
    Mr. Bishop. I was really--my question was going to the 
impact that it would have on the programs, on the services that 
they provided to their respective areas, their expertise.
    Mr. Sherman. These individuals currently serve as 
coordinators of RC&D councils. So if the funding is not there 
for these councils, then I think the question is whether these 
councils will reach out to others on a voluntary basis or find 
others that they are willing to pay for who can step in and 
coordinate the efforts of the council. If they can't----
    Mr. Bishop. They won't have any federally funded 
coordinators?
    Mr. Sherman. They will not have federally funded 
coordinators. Eighty percent----
    Mr. Bishop. Pull themselves up by their own bootstraps, so 
to speak?
    Mr. Sherman. That is correct.
    Mr. Bishop. Get their own funding.
    Mr. Sherman. That is correct.
    Mr. White. But we might have more help for Flint River.

                          NRCS STRATEGIC PLAN

    Mr. Bishop. Okay.
    Let me shift gears for a moment and ask if you would just 
talk about your strategic plan. Over the past few years, you 
have had discussions about strategic planning at NRCS. Can you 
tell us if your strategic planning process has taken into 
account the tight budgetary environment that we are currently 
facing and the likelihood that this will spill over into the 
current farm bill negotiations?
    How do you see the proposed changes would impact that plan, 
particularly in terms of the Department's internal and external 
assessments of natural resources, human capital, civil rights, 
and the other issues?
    Mr. White. Well, we have revised the strategic plan, and it 
is going to come out shortly. And it is pretty simple. What I 
wanted was something you can put on one page, maybe front and 
back at most. We want to get our house in order, and that is 
directly related to fixing the financial arena and those 
processes that are bogging us down.
    So, first get our house in order; two, get more 
conservation on the ground, streamline how we work with 
producers, make it more producer-friendly and better there; 
and, three, work with our partners where we can to create a 
climate where voluntary, incentive-based conservation can 
succeed, or continue to succeed.
    And regardless of the budget--up, down, in between--I think 
that those strategic goals are relevant regardless of what 
happens to the budget, sir.

                          PROGRAM ELIMINATIONS

    Mr. Bishop. Okay. I appreciate that very much.
    Let me shift again. Overall, with your recommendations, 
with the administration's position, I guess driven by OMB or 
whomever, that some of these programs and functions will have 
to be eliminated, and you are recommending not funding them.
    Does this really reflect the ability or an approach to do 
more with less, to eliminate redundancies and overlapping 
programs so, at the end of the day, you will still be able to 
accomplish the mission that you have to accomplish but just 
doing it more efficiently? Or is this simply an exercise in 
just cutting the budget to comply with the necessity of the 
difficult financial crisis that we are in?
    Mr. Sherman. Congressman, I think it is both. I think there 
are areas where we probably won't be able to accomplish 
everything that we sought to do. I think there will be other 
areas where we try to identify efficiencies, better ways of 
doing things, where we can stretch our dollars more effectively 
and further.
    But it is really both. In the areas where we have proposed 
cuts, hopefully our local partners will find ways to continue 
doing a number of the things that previously were done. But we 
will have to wait and see whether that happens.
    Mr. Kingston. The gentleman's time has expired.
    Ms. Lummis.

                    CONSERVATION PRACTICE STANDARDS

    Mrs. Lummis. Thank you, Mr. Chairman.
    I want to add on to and support Mr. Latham's line of 
questioning with regard to the land manure standards and----
    Mr. White. Yes, ma'am.
    Mrs. Lummis [continued]. Specifically would be interested 
in knowing at some point what the scientific basis is for 
limiting phosphorous and potassium to 10 times the crop removal 
rate.
    But since you recognize that this 590 rule is a problem and 
you are all over it, as you say, just know that I share Mr. 
Latham's concern.
    Mr. White. Yes, ma'am.

                        WETLANDS RESERVE PROGRAM

    Mrs. Lummis. Okay. Great.
    A question about the Wetland Reserve Program. Has the NRCS 
looked into provision exemptions that would allow haying and 
grazing in the same year, where that is appropriate for wetland 
reserves?
    Mr. White. Yes.
    Mrs. Lummis. Oh, good.
    Mr. White. In 2002, I was loaned to Senator Harkin and 
worked on that Farm Bill. No, 2002 was Senator Lugar; 2008 was 
Senator Harkin. But in the 2008 Farm Bill, we put a special 
provision in the Wetlands Reserve Program that made it through 
the adoption phase to allow haying and grazing as part of the 
WRP. Because, instead of making it a land retirement program, I 
think it would be better served as a working lands program.
    The reason is, particularly as you go west, you know, west 
of the 100th meridian, those wetlands grew up under the 
ungulates. Every 18 months or 2 years, buffalo come down there 
and they would make it look like a nuclear bomb hit it, and 
then they would move on, and the wetlands came back. They grew 
up under that ecosystem.
    So we do have the authorities for reserved rights for 
grazing. For regular WRP, we can also work with the landowner 
to do a plan to allow the grazing.
    Mrs. Lummis. So is that on a case-by-case basis? Or do you 
have standards that you are going to publish?
    Mr. White. It is on a case-by-case basis for the existing 
WRPs. If you come under the reserved rights, it is actually in 
the agreement--the rancher says, okay, that is mine, if I do it 
according to a plan. So there are two different scenarios right 
now.
    Mrs. Lummis. Okay.
    Well, that was the only additional question I have, Mr. 
Chairman, and so I will yield back the balance of my time. 
Thank you.

                    CONSERVATION STEWARDSHIP PROGRAM

    Mr. Kingston. I thank the gentlewoman.
    And we will begin our third round.
    I want to ask you, Mr. Under Secretary, about the 
Conservation Security Program, which, as you know, was 
basically discontinued or at least had a major name change and 
overhaul in 2008. However, under the Conservation Security 
Program contracts, we are still paying farmers to participate 
in the failed program. It doesn't take new enrollees, but if 
you are already on the paper, you get paid.
    That is really repugnant to taxpayers. What can we do to 
get out of that?
    Mr. Sherman. I am not the expert on this program, but my 
understanding is, it is being phased out. Obviously, the 
Conservation Stewardship Program is now in place, and we are 
enrolling. We enrolled 25 million acres during 2010, and we are 
adding about 12 million acres a year to this program going 
forward.
    So we are phasing out of this other program. There were 
certain problems that were in that program that we are 
attempting to correct under the Conservation Stewardship 
Program.
    But I would turn to Chief White to be more specific in 
response to your question.
    Mr. Bishop. Would the gentleman yield?
    Mr. Kingston. Yes.
    Mr. Bishop. Is it a legal problem, that you can't just 
terminate those contracts because they have already been signed 
and it would result in some kind of legal liability, and that 
is why we are continuing to pay them even though we are 
discontinuing the program and going on with a different 
approach? But you have those existing programs, and they are 
still obligated because of the contracts, and there will be 
legal liability if those contracts are breached.
    Mr. Sherman. That is my understanding.
    Mr. White. Okay. Can I address that as part of the 
response--
    Mr. Kingston. And throw in there how much money is paid 
out. For 2012, what will it be? And what will it be aggregate 
during the life of those contracts? And how much would you 
estimate it would cost you to take the legal hit and close them 
out?
    Mr. White. Okay. All right. You are referring to the OIG 
audit of the Conservation Security Program. They went in five 
States. This happened a couple years ago. They found a huge 
error rate, a 50 percent error rate. It was stunning.
    When I became chief in 2009 and became aware of this, there 
were 23 recommendations in that OIG report. And I have to tell 
you, OIG was very fair. I think they did an honest job on this.
    And I can also tell you where I think the major error in 
the Conservation Security Program occurred, and that was, to 
save money, they made a decision to allow farmers to self-
certify. So if you told us you had 100 acres and terraces, we 
said, well, you have 100 acres and terraces, and that is what 
it was based on. But when the OIG actually went into the field, 
maybe you had 98 acres, maybe you had 105, maybe you didn't 
have terraces. These were a lot of the errors that they 
particularly cited.
    So when I became chief, I did not have us go back and look 
at the contracts in those five States; I ordered a top-to-
bottom review from Maine to Hawaii, every single contract, 
21,000 of them. Go to the field, verify it. If there is a 
problem with anything--eligibility, paperwork--fix it. And if 
you can't fix it, we have to cancel it and get out of it.
    We have canceled gobs of them. We have fixed gobs of them. 
We are down to a handful that are really kind of ugly right 
now. They will probably end up in some lawsuits. I am trying to 
remember, there are 28 or 30 contracts still out where we are 
asking for major amounts of money back. We recovered a couple 
of million, and there are still some more out there. But we are 
progressing and working with the inspector general to clean 
this up.
    Mr. Bishop. Would the gentleman yield?
    Mr. Kingston. Yes.

                          CANCELLED CONTRACTS

    Mr. Bishop. The ones that you were able to cancel, you were 
able to do that because you found that they were in breach of 
their obligations under the contract. And, therefore, if they 
were in breach, you were justified in canceling it. But those 
who were proceeding according to what was expected of them or 
where there was a legitimate dispute, those are the ones that--
--
    Mr. White. That remain. The ones that are remaining are 
okay. They are eligible. They are doing what they are supposed 
to do. They are carrying out their contracts. And it would take 
$197 million in 2012 to pay all the existing contracts. So I 
think that we should continue to pay the existing contracts----
    Mr. Kingston. $198 million?
    Mr. Sherman. $197 million.
    Mr. White. $197 million.
    Mr. Kingston. Okay.
    Mr. White. Well, $197 million is close enough.
    Mr. Kingston. And the ones who were in violation, were they 
dropped immediately, as Mr. Bishop said? And are they banned 
from participating in future--not just that program under the 
new name, Conservation Stewardship Program, but under other 
programs?
    Mr. White. Now, that I don't know. I will have to find out, 
Mr. Kingston.
    Mr. Kingston. When somebody is in violation of a farm 
program, can they go on to other programs? If you violate WRP, 
could you still be eligible for EQIP?
    Mr. White. Well, there is a list, a debarment list that you 
can put people on, and it would preclude them from 
participating in just about any Federal program. But I have to 
check and see what it would mean for these farmers.
    [The information follows:]

    Egregious conservation program contract violations may serve as the 
basis for suspension and debarment actions by NRCS. Provisions at 2 CFR 
Part 417 establish the USDA policies and procedures for debarment and 
suspension. Generally, the period of debarment is based on the 
seriousness of the cause(s) upon which the debarment is based and 
usually does not exceed three years. However, if circumstances warrant, 
debarring officials may impose a longer period. Any individual, 
organization, corporation, or other entity convicted of a felony for 
knowingly defrauding the United States in connection with any program 
administered by USDA can be permanently debarred from participation in 
USDA programs.
    All NRCS Conservation Program Contracts (financial assistance 
agreements) contain language in the terms and conditions regarding 
participant self-certification that to the best of their knowledge and 
belief, they are not presently debarred, suspended, proposed for 
debarment, declared ineligible, or voluntarily excluded from covered 
transactions by any Federal department or agency.

    Mr. Kingston. Okay. My time has expired.
    One last question: Will you give us a copy of your 
remediation plan, switching back on the OIG report?
    Mr. White. Oh, for this?
    Mr. Kingston. Yes.
    Mr. White. You betcha.
    [The information follows:]

    Information has been provided to the Committee.

    Mr. Kingston. Can't wait to read it.
    Mr. Bishop. We may need a budget increase this year to 
offset that.
    Mr. Kingston. Mr. Farr.

                           FARM BILL PROGRAMS

    Mr. Farr. Mr. Chairman, I would like to compliment you on 
having this kind of a hearing. I think so much of this right 
now, the CRs that we passed and even the President's budget, 
what we failed to do on the legislative side, Congress, is to 
understand the implications of these cuts as they trickle down 
into communities.
    And I was just--it was interesting, I wish Mrs. Lummis and 
Mr. Graves were still here, because there are 12 programs that 
Natural Resources Conservation Service manages. I mean, we 
mentioned the WRP, the CRP, the EQIP. There is the WHIP, and 
there is the FRP, and there is a bunch of others, including 
AMA, which I don't know what they are. I am looking them up.
    But if you look at that list of how these States benefit 
from these programs, it is very disproportional. I mean, it 
isn't, you know, one size fits all. This formula isn't across 
the country. And some States very heavily use--I mean, Wyoming 
is the number one in the country by tens of millions of dollars 
under the EQIP program. There is no other State--excuse me, not 
EQIP. I was thinking of the FRPP program.
    And it just seems to me that, indeed, if Mr. Graves wants 
to cut everything across the board, what I would ask the 
Secretary and the chief here is, break down what kind of impact 
that is going to have by State and by congressional district.
    Mr. White. Okay.
    Mr. Farr. You know, in essence, this process has to be a 
political one, and it has to involve the community. And I fault 
this administration because they are willing to bring in cuts 
in their budget, but when you ask them, how is this going to 
affect people on the ground, they won't tell you, because we 
support the cuts.
    And I don't think that is the way to communicate to people, 
to say, okay, because the President wants it and because the 
Republican leadership has agreed to it, that we don't have to 
tell you what it is going to be. We have to tell people what it 
is going to be whether we like the news or not. Because the 
political side is then to make sure that people get involved, 
and how are they going to trust government if we don't engage 
them in what we are trying to do? We become so Beltway-
interested. And I would hope that we can have more and more 
hearings about--we are going to be in this mood for a couple 
years, I think, of cut, squeeze, and trim. And, I mean, that is 
the political reality.
    But we ought to be smart about, okay, let's really engage 
the public in understanding what that cut, squeeze, and trim is 
going to do. And, as I said, even in your agency, with all 
these 12 different programs, it is going to have all different 
kind of disproportionate effects on different congressional 
districts.
    Mr. Bishop. Will the gentleman yield on that?
    Mr. Farr. Yes.
    Mr. Bishop. You mentioned earlier that, in looking at the 
regulations in the application, you had to look at it on a 
regional basis. It would seem to me that, as we evaluate these 
programs, that they have to be looked at on a regional basis, 
because there are some areas that benefit from certain programs 
and not from others. And somehow there has to be an equitable 
balance so that programs that will benefit certain regions, 
because of geography or because of crops or because of 
whatever, that they will be able to continue to utilize the 
benefits of those programs, whereas, you know, in other parts 
of the country--maybe it is Wyoming--other programs are more 
compatible with their needs.
    Mr. White. Exactly. That is a good point. And we would be 
happy to do runs on the various budget scenarios. That is----
    Mr. Bishop. As we go into the farm bill, we need to have 
this kind of information, we need to have that kind of 
analysis. Because, depending upon who is making the decisions, 
who is at the table and what region they are from, they tend to 
think of it in terms of what is good for their region, as 
opposed to what will benefit----
    Mr. White. America.
    Mr. Bishop [continuing]. Everybody in those respective 
areas.
    Mr. White. Exactly.
    Mr. Kingston. And if the gentleman will yield--and I 
actually think it is Mr. Farr's time--one of the things that 
would be of interest to this committee, because we often get 
into who is getting the most, which State is, it would be 
interesting--now, you know, obviously, there is acreage 
consideration and environmental sensitivity and growth factors. 
But I think it would be interesting to know which States are 
getting the money the most, just for our own--because any way 
you look at the statistics, you could use it on a superficial 
basis to come to a conclusion that is wrong--you know, money 
per head, money per acre, any way you can do it. But it is 
something that comes up all the time on this committee, so we 
would be interested.
    Mr. Sherman. Would you like this for all of the mandatory 
programs and the discretionary programs?
    Mr. Kingston. I think it would be very interesting.
    Mr. Sherman. All right. We will be happy to get that.
    Mr. Kingston. And I am not sure in what way to format it so 
that people could use it.
    Mr. Farr, Mr. Bishop and I enjoyed your time. Do you have--
--
    Mr. Farr. I just want to make sure that you report back, as 
Mr. Graves has asked for a 25 percent reduction--I don't know 
if it is across the board or he wants you to figure out how to 
do that 25 percent. All I am just saying, whatever way you 
respond to him, I want you to add to that what the impact will 
be on congressional districts.
    Mr. Sherman. Okay.
    Mr. White. I think we can do it by congressional district, 
but I know we can do it by State.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6636A.042
    
    Mr. Farr. Well, that will be helpful. Some States are 
pretty big.
    I mean, I was just showing Mr. Latham, I mean, here we are, 
the CRP program. Iowa gets $6 million out of the CRP program. 
California, the number-one ag State in the country, gets 
$47,000. Excuse me, $47 million--no, I guess--it doesn't say 
millions. No, it just says $47,000. And then Wyoming gets 
$169,000. I mean, it is very, very small. California and 
Wyoming are very small, but other States--you know, Wyoming 
gets $21,000 out of the FRP program, and Georgia gets $24,000.
    So it is just a whole different aspect of how these 
programs affect States. And what is good for one is horrible 
for the other.
    Mr. White. Like the guys in your district would not accept 
a $50- or $100-an-acre rental rate for land that is producing--
you know, you are a high-value specialty crop, so the CRP is of 
limited interest to----
    Mr. Kingston. CRP is, like, $10 an acre or something.
    Mr. White. Well, it is $40 maybe. Forty-five dollars is the 
national average; you go below that. And then you also have 
higher-value crops in Iowa.
    Mr. Farr. Our ag land is $40,000 an acre. You can't grow 
anything on it that would give you $40,000 return----
    Mr. White. That is why California doesn't have much in 
the----

                 CONSERVATION PRACTICES AND FOOD SAFETY

    Mr. Farr. Well, we don't sell ag land. You either inherit 
it or marry it, if you want it.
    Well, let me just ask the last part of--since you used my 
time. But I would just like to comment that the point of what 
was happening with the E. coli issue is that all the corporate 
buyers--you know, McDonalds buys all their lettuce from growers 
in the Salinas Valley. So their lawyer comes in and says, ``Oh, 
my God. I am the risk management for the corporation. Do you 
know that birds fly over your fields? Couldn't that be 
dangerous?'' You know, or animals come in. Yes. We farm in the 
open space.
    But that is where you have this--and what was lost is 
that--the credibility has always been with the government. I 
mean, FDA has a lot of credibility and trust by the consumer. 
But in this area of food safety, the evolving of that is that 
nobody trusts anybody in it. So then the corporations come out 
and use these sort of models for risk analysis that have 
nothing to do with practicing farm practices in a rural area 
and start telling farmers that they have to sort of grow 
everything in sheds and use sterilized water. I mean, it is 
nuts. And we have to recapture the science of that. And the 
science is in your agency, along with FDA.
    So I think this whole new movement of reprofessionalizing 
and gaining the confidence of everyone that the rules and 
procedures that we develop between the private-sector and 
public-sector managers are the standard bearer, and we don't go 
out and start privatizing rulemaking.
    Mr. Sherman. Okay.
    Mr. Kingston. Mr. Latham.

                     CONSERVATION SECURITY PROGRAM

    Mr. Latham. Thank you, Mr. Chairman.
    And I am glad to hear Mr. Farr saying those things, because 
it does become ridiculous sometimes, some of the rules and 
regulations. And I think the 590 stuff is going to prove to be 
unworkable, most of that.
    Going back to CSP, how many of the contracts were--you say 
it was self-certified. How many were not in compliance of the--
you said 21,000 contracts?
    Mr. White. That is how many total were in the old CSP.
    Mr. Latham. But how many of those were----
    Mr. White. I don't have that number. I guess----
    Mr. Latham. Is it half?
    Mr. White. In the five States they looked at, they found a 
50 percent error rate. I don't know if that was nationwide. We 
will have to get you the numbers on that.
    What I was told is that most of the contracts that had 
errors were nonsubstantive--they were technical in nature. You 
may not have had every single lease agreement of the farms you 
had, in there in the file. There were things that were 
technical corrections that we had to make.
    The category where there was actual out and out, ``You got 
to go,'' I don't know exactly how large that was.
    [The information follows:]

    Nationally, NRCS reviewed 20,653 active Conservation Security 
Program contracts. Of those reviewed, 7,666 had some error. Thus, the 
rate of error nationally is approximately 37 percent. However, many of 
these errors were minor or technical in nature and were readily 
corrected.
    In particular, the number of contracts that had errors that were 
technical in nature was 5,495. A total of 2,099 contracts had errors 
relating to incorrect payment levels. All corrective actions were taken 
by December 31, 2009. Most of the actions taken were contract 
modifications to correct the errors, or collection of missing 
documentation. A total of 333 contracts were cancelled or terminated. 
In cases where applicable, money was recovered from the participants. 
To date, $4.618 million has been collected.
    There are several outstanding contracts that have required extra 
investigation. These contracts have recently been issued demand/
termination letters to collect an additional $2.295 million.

    Mr. Latham. The idea of that, supposedly, was to improve 
water quality, air quality, and soil quality. On an individual 
piece of property, have you ever been able to quantify 
benefits?
    Mr. White. We are getting there. Because that is how----
    Mr. Latham. But your answer is, no, you haven't, right?
    Mr. White. I would say, we can do that now in certain 
areas. We have some----
    Mr. Latham. Where?
    Mr. White. Well, actually, in the Chesapeake Bay. We can 
now----
    Mr. Latham. On individual properties?
    Mr. White. Yes.
    Mr. Latham. Not the watershed?
    Mr. White. Yes. We have surrogates now that could tell you 
the sediment, the nitrogen and the phosphorous reductions.
    Mr. Latham. How about air quality?
    Mr. White. No, not there. No.
    Mr. Latham. Okay. So we are spending--I mean, this program 
has been a disaster from the start. We have never been able to 
quantify benefits. We are spending $198 million this year on a 
program that you are going to discontinue because it is 
apparently full of fraud, according to the OIG.
    I mean, it is mind-boggling to me on this whole thing. It 
never has been workable. We have never been able to quantify 
anything, and yet we are spending all this money.
    Mr. White. The old CSP was intended to--the rationale 
behind it was that farmers produce more than corn, cotton, 
wheat, soybeans; they also produce clean air, clean water. It 
was a stewardship program. It----
    Mr. Latham. Which was unworkable.
    Mr. White. It was implemented at the watershed level, 
where, if you were in the watershed, you were okay; if you were 
out, you had to wait 8 years. There were some issues.
    In 2008, Congress specifically set that one aside and 
revamped it. What we have now is completely different. We 
learned a lot of things not to do.
    Mr. Latham. Right.
    Mr. White. But now we have gone back and reviewed all the 
old ones. Those people are in compliance with their contracts. 
The fraud is not there anymore. What we have left is pretty 
solid stuff that is doing some benefits for the Nation.
    Mr. Latham. But you cannot quantify on an individual piece 
of ground any benefit?
    Mr. White. That has always been our issue in the past, 
regardless of program. I mean, we are excellent at counting 
acres, feet, miles----
    Mr. Latham. Right.
    Mr. White [continued]. But I can't tell you the impact on 
benthic macroinvertebrates.
    Mr. Latham. Well, it is bad enough----
    Mr. White. But we are getting there.

                          PROGRAM ELIMINATIONS

    Mr. Latham [continued]. That you have done away with it, 
and hopefully fixed it, because it was insane, the way it was 
started.
    In your budget, you are eliminating the watershed programs. 
And I will just make kind of an aside here. A lot of us have 
been here long enough to know that administrations propose 
things kind of with a wink and a nod, saying, ``We know 
Congress is going to protect it, and we are not really going to 
do this, but we have to say we are going to do it.''
    I will tell you, under the budget situation here we are in, 
we are probably going to take everything that you say to get 
rid of. And, I mean, I think you better be realistic as to what 
you are proposing here, because this stuff is probably going to 
happen, unlike in years past. I mean, this is a whole different 
dynamic we are in today.
    But I don't know how you have any--you know, in Iowa, we 
have had a lot of floods--with doing away with this program, 
how you are going to have any role in the evaluation of flood 
protection, small and rural areas. If you can very briefly--
obviously, we are out of time--but comment on that.
    Mr. White. I know. There are a lot of projects there, and 
they do a lot of good. And I fully understand how the system 
used to work. In 1609, the Japanese invented kabuki theater, 
and it was perfected to a fine art here several years ago. But 
the rules have changed, and now a lot of things we would maybe 
have liked to have kept are not going to be available to us.
    Mr. Kingston. Mr. Bishop.
    Mr. Bishop. I yield.
    Mr. Kingston. Ms. Kaptur.
    Ms. Kaptur. Thank you.
    I thank my colleague, Mr. Bishop, again for yielding to me.
    And, Mr. Chairman, thank you for your very positive 
demeanor during these meetings.
    Mr. Kingston. Thank you.

                  WESTERN LAKE ERIE BASIN PARTNERSHIP

    Ms. Kaptur. And we want to welcome our visitors from USDA.
    My questions are regional, somewhat, in nature here. As you 
probably know, Mr. White, for a long time, we have had a 
Western Lake Erie Basin Partnership study ongoing involving not 
just NRCS but the Army Corps of Engineers, the EPA, the U.S. 
Geological Survey, and three States--Ohio, Michigan, and 
Indiana--because of this massive watershed that we are a part 
of in what I like to call ``Amsterdam America''--very flat land 
and a tremendous flat watershed, which drains into the largest 
river that flows into the Great Lakes, the Maumee River. Your 
people out there, Terry Cosby and Steve Davis, have been 
marvelous in trying to embrace this.
    But one of my questions is, as we transition to this new 
budget, how can we implement, after 10 years of effort, many of 
the recommendations that had been made?
    Because we have continuous flooding. We just had another 
problem, again, in Finley, Ohio, represented by Jim Jordan. 
Mike Pence has problems over in Indiana. We have problems. Bob 
Latta has problems. It spans congressional districts.
    And we have this issue of programs that NRCS has--your 
Wetlands Reserve Program. You have Ag Water Enhancement 
Programs, Strategic Watershed Teams. There are a lot of parts 
of your budget. What is a little unclear to us is, how do we 
piece this together to keep making progress in this region and 
have a real rollout so we fix what is wrong and help to better 
filter our water or hold our water, move with the Corps to dry 
dam, swales, whatever we have to do across this region?
    I guess it is a good problem, to have too much water. The 
problem is, it is doing a lot of damage. And unlike certain 
other Representatives, I don't just represent agriculture. I 
have major cities in between all this, and they get flooded, 
too.
    So how do we work with you and maybe the Great Lakes 
Restoration Initiative to kind of prioritize what needs to be 
done a little more clearly so the local mayors, the local 
county commissioners, we all understand what we are doing in 
view of the budget you are submitting? That would be my first 
question.

                      WILDLIFE AND COMMUNITY LIFE

    And then my second question involves Lake Erie and the fact 
that the algal blooms on Lake Erie and the phosphorous loading 
has been significant. Some say we have actually gone backward 
now in terms of the progress that we have made with cleaning up 
Lake Erie.
    And we have this added problem of wildlife habitat, which 
is an asset because we are on the Mississippi Flyway, but we 
have geese now living in the city of Toledo by the thousands, 
on our Boy Scout reservation and our city parks. It is not too 
healthy. These are not the kind of geese you can eat. So there 
are issues that are involved with Canadian honkers that just 
cover the area.
    So my other question really has to do with, how does one 
balance, in an area, human health and community wellbeing where 
these geese, though they are up at the national wildlife 
refuges, there are so many of them that they are coming into 
the urban areas and they are a real nuisance? What does one do? 
What is the balance in nature?
    So my first question is relative to the Western Lake Erie 
Basin Partnership. My second question relates to, how do we 
balance the wildlife with human life and community life?

                             ENERGY PROGRAM

    And my third question is, you have an energy program--oh, 
gosh, I saw it in your testimony. My question is, can it be 
applied to the greenhouse industry? I was reading in your 
testimony--oh, here--on page 13, you do farm energy audits, and 
also you have organic initiatives mentioned on page 14. For our 
greenhouse growers that are located in urban counties, which is 
what I represent also, we have massive greenhouse industries, 
would those programs apply there? Because 40 percent of their 
cost of doing business is energy.
    Mr. White. Yes. Whew, I think I have it all down.
    Ms. Kaptur. One, two, three.

                  WESTERN LAKE ERIE BASIN PARTNERSHIP

    Mr. White. You bring up an issue of how we work together, 
and Mr. Farr brought that up earlier. If the earmarks truly are 
going away and they are not going to be here, there are many 
worthwhile things. So what do we do in California or Georgia or 
Ohio? What options are in the programs?
    Because we always want to work with local people, whether 
it is water quality, air quality, soil quality, wildlife, 
whatever the conservation issue is. You have outlined a pretty 
dramatic one, with the Maumee and the water quality going into 
Lake Erie.
    So what I think I have to do is figure out how we, in the 
absence of earmarks, can meet these local needs with the 
spectrum of programs that we have available to us, you know, as 
long as they are meeting the statutory purposes, of wildlife, 
water, air, soil.
    The Lake Erie algae blooms? Oh, my goodness.
    Ms. Kaptur. Massive. That is scary, actually.
    Mr. White. That is, like, something we ought to be on top 
of and trying to do everything we can to prevent. We have work 
in the Mississippi River, you know, and the Chesapeake Bay. We 
are doing a lot of things, so that is kind of sad that that is 
occurring again. And you say we may be taking a step backward.
    Ms. Kaptur. Absolutely. And everybody doesn't know, why all 
this phosphorous loading? What is the reason? It is like----
    Mr. White. Yes. And I will have to get with Terry Cosby on 
how we work in the future and what path we go down----
    [The information follows:]

    NRCS is committed to the best of our ability with available 
resources to help the landowners deal with increasing regulatory 
pressures and environmental challenges in critical watersheds such as 
the Great Lakes Basin.

    Ms. Kaptur. If you could just get us one, two, three, four, 
five, what are we supposed to do as a region? What could we 
work toward here?
    Mr. Kingston. And let me say, the gentlewoman's time has 
expired, but I am yielding 3 minutes from my time.
    Ms. Kaptur. Thank you.
    Mr. Sherman. Can I just also add, this obviously is a very 
broad set of issues you are raising, and it involves sister 
departments that we have--the Environmental Protection Agency--
EPA-- Interior, the National Oceanic and Atmospheric 
Administration--NOAA-- Department of Defense, so forth. And I 
really do think that whatever solutions we are exploring here 
we have to do on a much broader, intergovernmental effort. It 
is really important.
    Ms. Kaptur. I think the Great Lakes Initiative provides us 
with----
    Mr. Sherman. A model.
    Ms. Kaptur [continued]. Some ability, but I think you have 
the data set. They don't necessarily have the data set, to help 
us address this massive watershed. I mean, what does Mike Pence 
do over in his district? What does Jim do? What does Bob Latta 
do? What do I do? It would be nice if we knew.
    You know, your wetlands programs, you have so many 
programs. But what happens first, second, third, fourth, fifth? 
And then, of course, with Lake Erie, it isn't just Ohio; we 
have the whole Michigan issue. Maybe the phosphorous is coming 
from up there. I don't know. All I know is the problem that we 
have.
    Mr. White. Well, both of you have given me some ideas to 
think on in the future. Because we really want to address local 
conservation needs, whatever they may be across the country.
    These are not NRCS programs. We don't have ownership. We 
only have them because of your good graces. They are American 
conservation programs. Whether you are big or small, organic, 
conventional, we don't care. There ought to be something in 
those programs that our farmers and ranchers want to do on 
their place.
    The geese thing?
    Ms. Kaptur. Yes.

                      WILDLIFE AND COMMUNITY LIFE

    Mr. White. I hate to say this, but there is a program in 
USDA, the Animal and Plant Health Inspection Service, called 
Wildlife Services. Now, God knows I would never want to be 
serviced the way they would service wildlife. But they 
actually, like----
    Ms. Kaptur. Help.
    Mr. White [continued]. Kill them.
    Ms. Kaptur. See, but how do you have a kill in the city? I 
mean, do they bag them?
    Mr. White. Well, they did it in Staunton, Virginia, with 
some black vultures. They have cannons to shoo them away or 
other methods. They have a variety of things. Wildlife 
Services, if it is a city-type thing, is who I would contact.
    Ms. Kaptur. All right. Thank you.

                             ENERGY PROGRAM

    Mr. White. And the energy program, I have to check and see 
if greenhouse growers--I guess, as long as they are ag 
producers, it would be okay with me. You are talking about the 
audit issues?
    Ms. Kaptur. The audit issues and the organic technical 
assistance that you give. This would be a perfect fit for our 
growers. We have hundreds of them.
    Mr. White. Okay.
    [The information follows:]

    The Natural Resources Conservation Service (NRCS) can and does 
provide technical assistance and program financial assistance to 
agricultural producers who may utilize greenhouse facilities in their 
operations. The agency does not record or keep track of the number of 
producers associated with greenhouse operations, but they are an 
important client that we assist in many States.
    Examples of technical assistance NRCS provides these producers 
include development of conservation plans which address resource issues 
such as water quality, erosion control, pests, nutrient management, 
water conservation and other issues of importance to these operations. 
NRCS may recommend conservation practices such as irrigation water 
management, integrated pest management, nutrient management, erosion 
practices, seasonal high tunnels, and other practices that are commonly 
associated with greenhouse growers.
    NRCS has also provided financial assistance to greenhouse growers 
through the Environmental Quality Incentives Program (EQIP) to help 
these growers implement the conservation practices identified above.
    Many greenhouse growers are specialty crop or organic producers. 
NRCS recognizes the importance of these producers and they receive 
priority assistance. The agency has also launched efforts to help 
agricultural producers evaluate and conserve on-farm energy. NRCS 
offers assistance through EQIP for participants to develop farm energy 
audits, which can include on-farm facilities such as greenhouses. The 
audit helps the grower identify activities or improvements that can be 
made to conserve energy and address other resource concerns.

    Ms. Kaptur. But USDA generally doesn't see them because 
they are not only farming in dirt, they are farming in dirt 
inside of houses. So they don't necessarily offer technical 
assistance to them.
    Mr. Bishop. Will the gentlelady yield?
    Ms. Kaptur. Yes, I would be pleased to yield.

                          PROGRAM ELIGIBILITY

    Mr. Bishop. Are there some prohibitions in terms of 
population centers where your programs are eligible or there is 
no limit? I know there are some other USDA programs that are 
limited in terms of population as to whether or not you are 
authorized to provide the assistance. But with NRCS, it doesn't 
matter whether it is urban or rural.
    Mr. White. Location is an issue. We still have to comply 
with the adjusted gross income and any highly erodable land 
conservation issues compliance. But I would just have to check. 
If they were to go down to their local FSA office, I don't--I 
will just have to check on that, Ms. Kaptur.
    [The information follows:]

    There are no special requirements that must be met by a greenhouse 
grower in order to receive NRCS technical assistance. NRCS technical 
assistance is provided to greenhouse growers upon request and is 
dependent upon availability of staff to provide these services.
    Under NRCS conservation programs, greenhouse grower applicants must 
meet program specific land eligibility requirements and most of our 
programs require that applicants be agricultural producers in order to 
receive financial assistance. Many NRCS conservation programs are 
authorized by Title XII of the Food Security Act of 1985, as amended. 
Thus, in addition to meeting NRCS program specific eligibility 
criteria, a program applicant must visit the USDA Farm Service Agency 
(FSA) county office to establish farm records and determine their 
payment eligibility under the Adjusted Gross Income (AGI) provisions 
and the Highly Erodible Land and Wetland Conservation Provisions (HEL/
WC).
    The AGI provisions require that applicants requesting certain 
conservation program payments, either directly or indirectly are 
subject to average AGI provisions. Applicants who have adjusted gross 
nonfarm income exceeding $1 million are ineligible for conservation 
programs, unless at least 66.66% of total AGI was farm income. (Note: 
This limitation may be waived on a case-by-case basis for the 
protection of environmentally sensitive land of special significance.)
    The HEL/WC provisions tie program eligibility to their land 
management practices, including dis-incentives to farmers and ranchers 
who produce annually tilled agricultural commodity crops on highly 
erodible cropland without adequate erosion protection. In addition, 
these dis-incentives apply to farmers and ranchers who produce annually 
tilled agricultural commodities or make possible the production of 
agricultural commodities on land classified as wetlands.

    Ms. Kaptur. Okay. Thank you.

                    CONSERVATION STEWARDSHIP PROGRAM

    Mr. Kingston. Mr. White, let me ask you, on the 
Conservation Steward Program, I am still confused as to what 
farmers do who are participating in that that they would not be 
doing anyhow, particularly if they are participating in a 
direct payment crop program or something like that.
    Mr. White. You know, I have spent most of my thoughts on 
the Conservation Stewardship instead of the old Security. We 
are talking Stewardship, right, the new one?
    Mr. Kingston. Yes.
    Mr. White. Okay. Congress revamped the program in the 2008 
Farm Bill and made two categories. One, you have to agree to 
maintain that which you are already doing, keep it up to snuff, 
keep delivering benefits year after year after year. And 
Congress also put in there, you have to do more. It is not 
money for nothing; you have to do more.
    The last report I saw, Mr. Kingston, was that there are 
80,000 new conservation practices going to be installed on the 
25.2 million acres that are enrolled.
    Do I have the right to revise and extend if I want?
    [The information follows:]

    Section 1238E of the Food Security Act of 1985, as amended by the 
Food, Conservation, and Energy Act of 2008, identifies the purpose of 
the Conservation Stewardship Program (CSP) is to encourage producers to 
address resource concerns in a comprehensive manner by: 1) undertaking 
additional conservation activities; and 2) by improving, maintaining, 
and managing existing conservation activities. Section 1238G(e) 
requires NRCS to compensate CSP for maintaining existing conservation 
activities as well as for undertaking additional conservation 
activities. CSP participants are required to select one or more 
additional conservation activities to adopt over the course of the 
contract. Most of these activities are high-level conservation 
enhancements that go beyond NRCS conservation practice standards to 
deliver valuable conservation benefits.

    Mr. Kingston. Absolutely. Because I think that this program 
probably is a duplication of other things, and I have a lot of 
concerns about it. So, my time is about expired, but I would 
like to know exactly what they do that is different, and why 
should we be paying farmers to do what they were already doing?
    Well, I think that is my question. If you want to get back 
to us, we would be very--you know, CRP program, which Georgia 
is a major participant in, it pays farmers not to farm. And 
that is one of the things that people are always very critical 
of. So Conservation Steward Program, paying farmers to do what 
they were doing already, it is well-intended, but--Mr. Farr?
    Mr. Farr. I will yield you my time. I have no other further 
questions. 
    Mr. Kingston. Okay.
    Mr. Bishop.
    Mr. Bishop. I yield.
    Mr. Kingston. Ms. Kaptur.
    Ms. Kaptur. I think I have covered the questions that I 
wanted to. Thank you, Mr. Chairman.
    Mr. Kingston. Well, thank you.
    Mr. Bishop. If I might make a comment, Mr. Chairman?
    Mr. Kingston. Sure.
    Mr. Bishop. I just wanted to thank the agency for what you 
do, and particularly in Georgia, which is where I come from, 
and let you know that, of all of the USDA agencies in Georgia, 
that NRCS gets really, really high marks from our producers.
    And I just want to thank you for the work that our State 
conservationist, James Tillman, does, as well as the work that 
all of your folks do, because, I mean, our producers really, 
really, really speak very highly and think very highly of NRCS. 
And I want to thank you for what you do.
    Mr. Sherman. We appreciate those comments.
    And we appreciate the chance to work with this committee. 
We look forward to it in the future. Thanks very much.
    Mr. White. Do I get anything for being an honorary 
Georgian?
    Mr. Kingston. You will get a lot of questions for the 
record, and free peanuts. The committee stands adjourned.

[GRAPHIC] [TIFF OMITTED] T6636A.043

[GRAPHIC] [TIFF OMITTED] T6636A.044

[GRAPHIC] [TIFF OMITTED] T6636A.045

[GRAPHIC] [TIFF OMITTED] T6636A.046

[GRAPHIC] [TIFF OMITTED] T6636A.047

[GRAPHIC] [TIFF OMITTED] T6636A.048

[GRAPHIC] [TIFF OMITTED] T6636A.049

[GRAPHIC] [TIFF OMITTED] T6636A.050

[GRAPHIC] [TIFF OMITTED] T6636A.051

[GRAPHIC] [TIFF OMITTED] T6636A.052

[GRAPHIC] [TIFF OMITTED] T6636A.053

[GRAPHIC] [TIFF OMITTED] T6636A.054

[GRAPHIC] [TIFF OMITTED] T6636A.055

[GRAPHIC] [TIFF OMITTED] T6636A.056

[GRAPHIC] [TIFF OMITTED] T6636A.057

[GRAPHIC] [TIFF OMITTED] T6636A.058

[GRAPHIC] [TIFF OMITTED] T6636A.059

[GRAPHIC] [TIFF OMITTED] T6636A.060

[GRAPHIC] [TIFF OMITTED] T6636A.061

[GRAPHIC] [TIFF OMITTED] T6636A.062

[GRAPHIC] [TIFF OMITTED] T6636A.063

[GRAPHIC] [TIFF OMITTED] T6636A.064

[GRAPHIC] [TIFF OMITTED] T6636A.065

[GRAPHIC] [TIFF OMITTED] T6636A.066

[GRAPHIC] [TIFF OMITTED] T6636A.067

[GRAPHIC] [TIFF OMITTED] T6636A.068

[GRAPHIC] [TIFF OMITTED] T6636A.069

[GRAPHIC] [TIFF OMITTED] T6636A.070

[GRAPHIC] [TIFF OMITTED] T6636A.071

[GRAPHIC] [TIFF OMITTED] T6636A.072

[GRAPHIC] [TIFF OMITTED] T6636A.073

[GRAPHIC] [TIFF OMITTED] T6636A.074

[GRAPHIC] [TIFF OMITTED] T6636A.075

[GRAPHIC] [TIFF OMITTED] T6636A.076

[GRAPHIC] [TIFF OMITTED] T6636A.077

[GRAPHIC] [TIFF OMITTED] T6636A.078

[GRAPHIC] [TIFF OMITTED] T6636A.079

[GRAPHIC] [TIFF OMITTED] T6636A.080

[GRAPHIC] [TIFF OMITTED] T6636A.081

[GRAPHIC] [TIFF OMITTED] T6636A.082

[GRAPHIC] [TIFF OMITTED] T6636A.083

[GRAPHIC] [TIFF OMITTED] T6636A.084

[GRAPHIC] [TIFF OMITTED] T6636A.085

[GRAPHIC] [TIFF OMITTED] T6636A.086

[GRAPHIC] [TIFF OMITTED] T6636A.087

[GRAPHIC] [TIFF OMITTED] T6636A.088

[GRAPHIC] [TIFF OMITTED] T6636A.089

[GRAPHIC] [TIFF OMITTED] T6636A.090

[GRAPHIC] [TIFF OMITTED] T6636A.091

[GRAPHIC] [TIFF OMITTED] T6636A.092

[GRAPHIC] [TIFF OMITTED] T6636A.093

[GRAPHIC] [TIFF OMITTED] T6636A.094

[GRAPHIC] [TIFF OMITTED] T6636A.095

[GRAPHIC] [TIFF OMITTED] T6636A.096

[GRAPHIC] [TIFF OMITTED] T6636A.097

[GRAPHIC] [TIFF OMITTED] T6636A.098

[GRAPHIC] [TIFF OMITTED] T6636A.099

[GRAPHIC] [TIFF OMITTED] T6636A.100

[GRAPHIC] [TIFF OMITTED] T6636A.101

[GRAPHIC] [TIFF OMITTED] T6636A.102

[GRAPHIC] [TIFF OMITTED] T6636A.103

[GRAPHIC] [TIFF OMITTED] T6636A.104

[GRAPHIC] [TIFF OMITTED] T6636A.105

[GRAPHIC] [TIFF OMITTED] T6636A.106

[GRAPHIC] [TIFF OMITTED] T6636A.107

[GRAPHIC] [TIFF OMITTED] T6636A.108

[GRAPHIC] [TIFF OMITTED] T6636A.109

[GRAPHIC] [TIFF OMITTED] T6636A.110

[GRAPHIC] [TIFF OMITTED] T6636A.111

[GRAPHIC] [TIFF OMITTED] T6636A.112

[GRAPHIC] [TIFF OMITTED] T6636A.113

[GRAPHIC] [TIFF OMITTED] T6636A.114

[GRAPHIC] [TIFF OMITTED] T6636A.115

[GRAPHIC] [TIFF OMITTED] T6636A.116

[GRAPHIC] [TIFF OMITTED] T6636A.117

[GRAPHIC] [TIFF OMITTED] T6636A.118

[GRAPHIC] [TIFF OMITTED] T6636A.119

[GRAPHIC] [TIFF OMITTED] T6636A.120

[GRAPHIC] [TIFF OMITTED] T6636A.121

[GRAPHIC] [TIFF OMITTED] T6636A.122

[GRAPHIC] [TIFF OMITTED] T6636A.123

[GRAPHIC] [TIFF OMITTED] T6636A.124

[GRAPHIC] [TIFF OMITTED] T6636A.125

[GRAPHIC] [TIFF OMITTED] T6636A.126

[GRAPHIC] [TIFF OMITTED] T6636A.127

[GRAPHIC] [TIFF OMITTED] T6636A.128

[GRAPHIC] [TIFF OMITTED] T6636A.129

[GRAPHIC] [TIFF OMITTED] T6636A.130

[GRAPHIC] [TIFF OMITTED] T6636A.131

[GRAPHIC] [TIFF OMITTED] T6636A.132

[GRAPHIC] [TIFF OMITTED] T6636A.133

[GRAPHIC] [TIFF OMITTED] T6636A.134

[GRAPHIC] [TIFF OMITTED] T6636A.135

[GRAPHIC] [TIFF OMITTED] T6636A.136

[GRAPHIC] [TIFF OMITTED] T6636A.137

[GRAPHIC] [TIFF OMITTED] T6636A.138

[GRAPHIC] [TIFF OMITTED] T6636A.139

[GRAPHIC] [TIFF OMITTED] T6636A.140

[GRAPHIC] [TIFF OMITTED] T6636A.141

[GRAPHIC] [TIFF OMITTED] T6636A.142

[GRAPHIC] [TIFF OMITTED] T6636A.143

[GRAPHIC] [TIFF OMITTED] T6636A.144

[GRAPHIC] [TIFF OMITTED] T6636A.145

[GRAPHIC] [TIFF OMITTED] T6636A.146

[GRAPHIC] [TIFF OMITTED] T6636A.147

[GRAPHIC] [TIFF OMITTED] T6636A.148

[GRAPHIC] [TIFF OMITTED] T6636A.149

[GRAPHIC] [TIFF OMITTED] T6636A.150

[GRAPHIC] [TIFF OMITTED] T6636A.151

[GRAPHIC] [TIFF OMITTED] T6636A.152

[GRAPHIC] [TIFF OMITTED] T6636A.153

[GRAPHIC] [TIFF OMITTED] T6636A.154

[GRAPHIC] [TIFF OMITTED] T6636A.155

[GRAPHIC] [TIFF OMITTED] T6636A.156

[GRAPHIC] [TIFF OMITTED] T6636A.157

[GRAPHIC] [TIFF OMITTED] T6636A.158

[GRAPHIC] [TIFF OMITTED] T6636A.159

[GRAPHIC] [TIFF OMITTED] T6636A.160

[GRAPHIC] [TIFF OMITTED] T6636A.161

[GRAPHIC] [TIFF OMITTED] T6636A.162

[GRAPHIC] [TIFF OMITTED] T6636A.163

[GRAPHIC] [TIFF OMITTED] T6636A.164

[GRAPHIC] [TIFF OMITTED] T6636A.165

[GRAPHIC] [TIFF OMITTED] T6636A.166

[GRAPHIC] [TIFF OMITTED] T6636A.167

[GRAPHIC] [TIFF OMITTED] T6636A.168

[GRAPHIC] [TIFF OMITTED] T6636A.169

[GRAPHIC] [TIFF OMITTED] T6636A.170

[GRAPHIC] [TIFF OMITTED] T6636A.171

[GRAPHIC] [TIFF OMITTED] T6636A.172

[GRAPHIC] [TIFF OMITTED] T6636A.173

[GRAPHIC] [TIFF OMITTED] T6636A.174

[GRAPHIC] [TIFF OMITTED] T6636A.175

[GRAPHIC] [TIFF OMITTED] T6636A.176

[GRAPHIC] [TIFF OMITTED] T6636A.177

[GRAPHIC] [TIFF OMITTED] T6636A.178

[GRAPHIC] [TIFF OMITTED] T6636A.179

[GRAPHIC] [TIFF OMITTED] T6636A.180

[GRAPHIC] [TIFF OMITTED] T6636A.181

[GRAPHIC] [TIFF OMITTED] T6636A.182

[GRAPHIC] [TIFF OMITTED] T6636A.183

[GRAPHIC] [TIFF OMITTED] T6636A.184

[GRAPHIC] [TIFF OMITTED] T6636A.185

[GRAPHIC] [TIFF OMITTED] T6636A.186

[GRAPHIC] [TIFF OMITTED] T6636A.187

[GRAPHIC] [TIFF OMITTED] T6636A.188

[GRAPHIC] [TIFF OMITTED] T6636A.189

[GRAPHIC] [TIFF OMITTED] T6636A.190

[GRAPHIC] [TIFF OMITTED] T6636A.191

[GRAPHIC] [TIFF OMITTED] T6636A.192

[GRAPHIC] [TIFF OMITTED] T6636A.193

[GRAPHIC] [TIFF OMITTED] T6636A.194

[GRAPHIC] [TIFF OMITTED] T6636A.195

[GRAPHIC] [TIFF OMITTED] T6636A.196

[GRAPHIC] [TIFF OMITTED] T6636A.197

[GRAPHIC] [TIFF OMITTED] T6636A.198

[GRAPHIC] [TIFF OMITTED] T6636A.199

[GRAPHIC] [TIFF OMITTED] T6636A.200

[GRAPHIC] [TIFF OMITTED] T6636A.201

[GRAPHIC] [TIFF OMITTED] T6636A.202

[GRAPHIC] [TIFF OMITTED] T6636A.203

[GRAPHIC] [TIFF OMITTED] T6636A.204

[GRAPHIC] [TIFF OMITTED] T6636A.205

[GRAPHIC] [TIFF OMITTED] T6636A.206

[GRAPHIC] [TIFF OMITTED] T6636A.207

[GRAPHIC] [TIFF OMITTED] T6636A.208

[GRAPHIC] [TIFF OMITTED] T6636A.209

[GRAPHIC] [TIFF OMITTED] T6636A.210

[GRAPHIC] [TIFF OMITTED] T6636A.211

[GRAPHIC] [TIFF OMITTED] T6636A.212

[GRAPHIC] [TIFF OMITTED] T6636A.213

[GRAPHIC] [TIFF OMITTED] T6636A.214

[GRAPHIC] [TIFF OMITTED] T6636A.215

[GRAPHIC] [TIFF OMITTED] T6636A.216

[GRAPHIC] [TIFF OMITTED] T6636A.217

[GRAPHIC] [TIFF OMITTED] T6636A.218

[GRAPHIC] [TIFF OMITTED] T6636A.219

[GRAPHIC] [TIFF OMITTED] T6636A.220

[GRAPHIC] [TIFF OMITTED] T6636A.221

[GRAPHIC] [TIFF OMITTED] T6636A.222

[GRAPHIC] [TIFF OMITTED] T6636A.223

[GRAPHIC] [TIFF OMITTED] T6636A.224

[GRAPHIC] [TIFF OMITTED] T6636A.225

[GRAPHIC] [TIFF OMITTED] T6636A.226

[GRAPHIC] [TIFF OMITTED] T6636A.227

[GRAPHIC] [TIFF OMITTED] T6636A.228

[GRAPHIC] [TIFF OMITTED] T6636A.229

[GRAPHIC] [TIFF OMITTED] T6636A.230

[GRAPHIC] [TIFF OMITTED] T6636A.231

[GRAPHIC] [TIFF OMITTED] T6636A.232

[GRAPHIC] [TIFF OMITTED] T6636A.233

[GRAPHIC] [TIFF OMITTED] T6636A.234

[GRAPHIC] [TIFF OMITTED] T6636A.235

[GRAPHIC] [TIFF OMITTED] T6636A.236

[GRAPHIC] [TIFF OMITTED] T6636A.237

[GRAPHIC] [TIFF OMITTED] T6636A.238

[GRAPHIC] [TIFF OMITTED] T6636A.239

[GRAPHIC] [TIFF OMITTED] T6636A.240

[GRAPHIC] [TIFF OMITTED] T6636A.241

[GRAPHIC] [TIFF OMITTED] T6636A.242

[GRAPHIC] [TIFF OMITTED] T6636A.243

[GRAPHIC] [TIFF OMITTED] T6636A.244

[GRAPHIC] [TIFF OMITTED] T6636A.245

[GRAPHIC] [TIFF OMITTED] T6636A.246

[GRAPHIC] [TIFF OMITTED] T6636A.247

[GRAPHIC] [TIFF OMITTED] T6636A.248

[GRAPHIC] [TIFF OMITTED] T6636A.249

[GRAPHIC] [TIFF OMITTED] T6636A.250

[GRAPHIC] [TIFF OMITTED] T6636A.251

[GRAPHIC] [TIFF OMITTED] T6636A.252

[GRAPHIC] [TIFF OMITTED] T6636A.253

[GRAPHIC] [TIFF OMITTED] T6636A.254

[GRAPHIC] [TIFF OMITTED] T6636A.255

[GRAPHIC] [TIFF OMITTED] T6636A.256

[GRAPHIC] [TIFF OMITTED] T6636A.257

[GRAPHIC] [TIFF OMITTED] T6636A.258

[GRAPHIC] [TIFF OMITTED] T6636A.259

[GRAPHIC] [TIFF OMITTED] T6636A.260

[GRAPHIC] [TIFF OMITTED] T6636A.261

[GRAPHIC] [TIFF OMITTED] T6636A.262

[GRAPHIC] [TIFF OMITTED] T6636A.263

[GRAPHIC] [TIFF OMITTED] T6636A.264

[GRAPHIC] [TIFF OMITTED] T6636A.265

[GRAPHIC] [TIFF OMITTED] T6636A.266

[GRAPHIC] [TIFF OMITTED] T6636A.267

[GRAPHIC] [TIFF OMITTED] T6636A.268

[GRAPHIC] [TIFF OMITTED] T6636A.269

[GRAPHIC] [TIFF OMITTED] T6636A.270

[GRAPHIC] [TIFF OMITTED] T6636A.271

[GRAPHIC] [TIFF OMITTED] T6636A.272

[GRAPHIC] [TIFF OMITTED] T6636A.273

[GRAPHIC] [TIFF OMITTED] T6636A.274

[GRAPHIC] [TIFF OMITTED] T6636A.275

[GRAPHIC] [TIFF OMITTED] T6636A.276

[GRAPHIC] [TIFF OMITTED] T6636A.277

[GRAPHIC] [TIFF OMITTED] T6636A.278

[GRAPHIC] [TIFF OMITTED] T6636A.279

[GRAPHIC] [TIFF OMITTED] T6636A.280


</pre></body></html>
